<html>
<title> - IRAN'S DESTABILIZING ROLE IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








                     IRAN'S DESTABILIZING ROLE IN 
                            THE MIDDLE EAST

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 16, 2014

                               __________

                           Serial No. 113-189

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-732 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001










                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
SEAN DUFFY, Wisconsin                JOAQUIN CASTRO, Texas
CURT CLAWSON, Florida

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director






















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Ray Takeyh, senior fellow for Middle Eastern studies, Middle 
  East Program, Council on Foreign Relations.....................     6
Mr. Scott Modell, senior associate, Burke Chair in Strategy, 
  Center for Strategic and International Studies.................    14
Natan B. Sachs, Ph.D., fellow, Saban Center for Middle East 
  Policy, The Brookings Institution..............................    22

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Ray Takeyh: Prepared statement...............................     8
Mr. Scott Modell: Prepared statement.............................    16
Natan B. Sachs, Ph.D.: Prepared statement........................    25

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    69
Written responses from Mr. Scott Modell to questions submitted 
  for the record by the Honorable Alan S. Lowenthal, a 
  Representative in Congress from the State of California........    71

 
                     IRAN'S DESTABILIZING ROLE IN 
                            THE MIDDLE EAST

                              ----------                              


                        WEDNESDAY, JULY 16, 2014

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This morning we look at Iran's considerable 
efforts to destabilize the Middle East.
    When it comes to Iran, attention has rightly been focused 
on efforts to stop its nuclear program. But as one witness will 
explain this morning, Iran's nuclear program is just the tip of 
the revolutionary sphere that extends across the world and 
threatens key U.S. interests. Iran's foreign policy, he goes on 
to say, is subversive, sectarian, and set on goals that would 
come at the expense of U.S. interests.
    He is right. Indeed, with Iran's long support of terrorist 
groups and support of militias and adversarial regimes, the 
region has been feeling the brunt of this revolutionary sphere 
for quite some time. Thanks to Iran, Hamas has rearmed since 
2012. Iran is the one that rearmed them, and nearly 80 percent 
of Israel's citizens are fleeing to bomb shelters this week as 
a result. With Iran's aid, Shi'a militias within Iran are 
rearming and they are mobilizing. The Assad regime, with the 
Iranian forces--with Quds Forces and with Hezbollah--continues 
to massacre Syrians. With Iran's aid, Hezbollah is able to 
threaten Israel with over 25,000 rockets and I can say that I 
saw some of this first hand. During the second Lebanon war I 
was on the ground in Haifa as those rockets were coming in. 
This was before the invention of the Iron Dome. There were 600 
victims in the Rambam Trauma Hospital and they were targeting 
civilian neighborhoods, and Houthi rebels supported by Iran are 
closing in on Yemen's capital. That is quite a record for a 
regime now sitting across the table from us in Vienna where the 
administration has conceded that this number-one state sponsor 
of terrorism in the world can arguably enrich uranium. My 
concern is that they are conceiving that. I hope it is not 
conceiving it because that is the pathway to a nuclear weapon.
    Of course, these aren't random efforts to support terrorism 
by the Iranian regime but concerted actions by this ayatollah-
led--and he is the key decision maker--this Shi'a-led 
government to overturn what Iran believes is a regional power 
structure that favors the United States, that favors Israel and 
their collaborators and when they say collaborators, of course, 
what they mean is the Sunni Muslim governments in the Gulf.
    This is a recipe for disaster for the region. It is a 
recipe for U.S. interests there and today Iran's work is on 
full display as hundreds of rockets rain down on southern 
Israel. It is Iran that provides, again, the funding, the 
weapons, the training to Hamas and other Palestinian terror 
groups. Iranian leaders have admitted to providing the missile 
technology that Hamas used against Israel during the last Gaza 
conflict in November 2012, and just the other week a U.N. panel 
of experts concluded that rockets and weapons concealed on the 
Klos C including long-range M-302 rockets originated from Iran. 
Other shipments have gotten through as Hamas have fired the 
recently acquired rockets for the first time and, of course, 
those bring all of Israel within--or nearly all within range, 
certainly, Tel Aviv and Jerusalem. These weapons put 8 million 
people into Gaza's range of fire. One of them struck Hadera, a 
coastal city between Tel Aviv and Haifa, 73 miles north of 
Gaza.
    In recent years, Iran has come under increasing strain from 
international sanctions aimed at stopping its nuclear program. 
This is what, frankly, got Iran to the table. When we talk 
about why they are at the negotiation table it is because of 
the sanctions passed here and adopted. But even with its 
economy damaged, Iran has managed to provide robust support to 
extremist proxies as part of its broader geopolitical agenda 
across the region. As one Ambassador from the region shared 
with me what do we think is going to happen if they come out 
from under those sanctions with respect to the capital that 
they will then have at their disposal for destabilization. Now 
the United States and other world powers are negotiating a 
final nuclear agreement with Iran that would lift most of the 
sanctions. Bad deal or good deal, and many of us fear a bad 
deal, any sanctions relief will bolster Iran.
    As one witness notes, Iran stands to gain $100 billion in 
frozen bank accounts and billions as oil exports resume. That 
is a lot of M-302 rockets. How well an Iran unchained by 
international sanctions treat its neighbors--I hope how it 
treats its own citizens aren't an indication of how it is going 
to treat its neighbors. How are the United States and her 
allies positioned to counter Iran's destabilizing activities in 
the Middle East? I am afraid we are going to hear from one of 
our witnesses today not well.
    And I will now turn to the ranking member for any opening 
comments that Mr. Engel of New York has.
    Mr. Engel. Thank you very much, Mr. Chairman, and thank you 
for calling this timely hearing about Iran's destabilizing role 
in the Middle East.
    As Iran continues waging its charm offensive with the 
international community, negotiating with the P5+1 over its 
nuclear weapons program, we cannot forget a basic fact: Iran 
remains the most active state sponsor of terrorism in the world 
and Iran is a key driver of regional instability.
    From Syria and Iraq to Yemen and the Palestinian 
territories, understanding Iran's nefarious behavior is 
essential to protecting the interest of the United States and 
our allies.
    Even as Iran's economy continues to falter under the weight 
of international sanctions, leaders in Tehran are plowing their 
scarce resources into elements of Iran's security apparatus 
that supports terrorism, particularly the Iranian Revolutionary 
Guard Corps and its Quds Force.
    Iran also provides funding, weapons and other support to a 
wide range of terrorist groups including Hezbollah, Hamas, and 
Palestinian Islamic jihad. All of these groups have been 
designated as foreign terrorist organizations by the United 
States and we will continue to treat them as such no matter 
what happens in the nuclear negotiations.
    I want to emphasize a point that you made in your opening 
statement, Mr. Chairman, with which I certainly agree and you 
and I have talked about this a great deal. It was sanctions 
that brought Iran to the negotiating table.
    It was sanctions that made Iran think twice about moving 
forward and I don't think we should remove those sanctions for 
any situation that is not preventive of Iran being able to have 
a nuclear weapon.
    I don't think we should willy nilly loosen sanctions on 
Iran. I think we should keep the sanctions until we see that 
they are dismantling their nuclear program.
    Last week, Chairman Royce and I sent a bipartisan letter to 
President Obama signed by more than 340 House colleagues. That 
is more than three-quarters of the members of the House of 
Representatives. We asked the President to consult with 
Congress on the scope of any potential sanctions relief.
    The letter noted that U.S. sanctions on Iran are based not 
only on its nuclear weapons program but also on Iran's 
ballistic missile program, its support for terrorism, its human 
rights abuses and its development of chemical and biological 
weapons.
    Even if a comprehensive nuclear deal is reached, and it 
enjoys broad support on Capitol Hill, it is safe to say that 
Congress would not lift all sanctions on Iran unless it ceases 
to be a bad actor in the region and dramatically improve its 
behavior in all of these areas.
    With hundreds of Hamas rockets raining down on Israel, we 
see the real impact of Iran's support for terrorism. In March, 
the Israeli navy intercepted the Klos C, a ship carrying 
Iranian rockets to the Gaza Strip including dozens of Syrian-
produced long-range M-302 rockets which are capable of reaching 
high-density Israeli population centers such as Tel Aviv, 
Jerusalem, and Haifa.
    By deliberately targeting civilian areas with these deadly 
weapons, Hamas is committing war crimes aided and abetted by 
Iran. I have to laugh at the crocodile tears coming out of 
Hamas terrorists in Gaza talking about the civilian population.
    I think yesterday was an eye opener for many people when 
the Egyptian-brokered cease fire was accepted by Israel but 
rejected by Hamas. It is clear to see who wants peace and who 
refuses to want peace.
    And Hamas would not and could not be so bold without all 
the support it has received from Iran. Iran, again, is the 
number-one supporter of terrorism around the world and Hamas is 
a terrorist organization.
    So in almost every conflict in the region we see Iranian 
fingerprints as Tehran seeks to spread its influence and 
manipulate its neighbors.
    Iran's support for Assad in Syria and for Hezbollah's 
intervention in the Syrian civil war has given the regime a new 
lease on life and resulted in the deaths of thousands of 
innocent Syrian civilians.
    Assad would not be winning, potentially, in Syria if it 
wasn't for Hezbollah, a terrorist organization supported, 
funded, maintained, and controlled by Iran. Iran's support for 
Hezbollah has also destabilized Lebanon and allowed the 
terrorist group to amass tens of thousands of rockets on 
Israel's northern border.
    Iran's involvement with the Maliki government and with 
radical Shi'a militias in Iraq have undermined efforts to 
establish a more inclusive government in Baghdad.
    So I don't think the U.S. should be cooperating with Iran 
on the situation in Iraq and I was pleased to hear Secretary 
Hagel's remarks last week confirming that we are not doing so.
    So Mr. Chairman, in conclusion, let me say at this time of 
great instability in the Middle East we need to remain clear-
eyed about the capabilities and intentions of our adversaries, 
especially Iran.
    I look forward to hearing the testimony of our 
distinguished panel of witnesses and thank you again for 
holding this important and timely hearing.
    Chairman Royce. Thank you, Mr. Engel. We now go to Ms. 
Ileana Ros-Lehtinen, chair of the Middle East Subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. While 
the administration takes unilateral steps to offer concessions 
to Iran as it pursues a weak nuclear agreement, it continues to 
disregard our calls for congressional oversight and our 
warnings on dealing with Iran while ignoring its destabilizing 
efforts.
    The regime in Tehran continues to actively and openly work 
against U.S. national security interests across the globe in 
Iraq and Syria. It arms and finances terrorist groups like 
Hezbollah and Hamas.
    Ted Deutch and I just came back from a trip to the region 
and many leaders expressed to us that pushing back Iran's 
breakout capability is not as important as dismantling Iran's 
nuclear infrastructure would be.
    Iran doesn't need the bomb to be dangerous. Just having the 
capability to get the bomb is enough to spark a nuclear arms 
race in the region.
    Instead of offering concessions to the regime, the 
administration should be pressing Iran to dismantle completely 
its nuclear program; abandon its support for Assad and its 
terrorist proxies; and cease its provocations against the U.S. 
and our ally, the democratic Jewish state of Israel, or else we 
will impose even stricter sanctions that will bring Iran's 
economy to its knees. It is the sanctions, stupid.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, and we appreciate you and Mr. 
Ted Deutch's recent trip to the Middle East. Mr. Deutch is the 
ranking member of the Middle East Subcommittee. We will go to 
Ted Deutch for 1 minute.
    Mr. Deutch. Thank you, Mr. Chairman. Thank you, Ranking 
Member Engel, for holding today's hearing and for your 
continued leadership and attention to Iran not just on the 
nuclear issue but to the whole of Iran's habitual bad behavior.
    We are just days away from seeing whether Iran is truly 
committed to finding a diplomatic solution to the nuclear 
crisis. But even if there is a diplomatic resolution to Iran's 
ongoing quest for a nuclear weapon, it would not change the 
fact that Iran would still be the largest sponsor of terrorism 
in the world, it would still be assisting the Assad regime in 
Syria, and it would still be repressing the basic human rights 
of its citizens.
    I would caution those who think that if a nuclear deal is 
reached that the world will simply ignore Iran's other 
violations of international norms including its meddling in 
regional affairs and attempts to incite instability in other 
countries.
    In the more likely scenario that a nuclear deal with Iran 
is not reached or if the duration of the deal is not long 
enough, an Iranian regime that still possesses the capability 
of developing a nuclear weapon would surely set off a nuclear 
arms race in the region.
    Mr. Chairman, we will know a lot more about Iran's 
intentions in the coming days. We must also be making our 
intentions clear--deal or no deal. The U.S. will not turn a 
blind eye to Iran's attempts to exploit a volatile Middle East.
    I appreciate it and I yield back.
    Chairman Royce. Thank you, Mr. Deutch. Mr. Brad Sherman of 
California is the ranking member on the Terrorism, 
Nonproliferation, and Trade Subcommittee.
    Mr. Sherman. Iran is the number-one state sponsor of 
terror. Hezbollah, Assad--a reach that included the Buenos 
Aires Jewish Community Center, a point on the globe as far from 
Tehran as one can get.
    Now imagine an Iran with the impunity of being a nuclear 
weapons state. But we should realize that we have limited 
bargaining power. We do not have Iran's economy completely on 
the ropes.
    We did not adopt sanctions that were effective 10 or 15 
years ago. We did it 10 or 15 months ago. We brought them to 
the table but we have not brought them to their knees unless we 
can imagine Iran with no centrifuges, no terrorism, and no 
theocracy.
    But I don't know whether we have rallied public opinion to 
the point where we are willing to, for just an example, ban 
Chinese imports to the United States as long as Japan 
maintains--or China or any other country maintains an economic 
relationship with Iran. That is the level of sanctions that I 
think goes beyond what we can adopt here in Washington.
    We are wise to have this hearing to illustrate to Americans 
and Europeans why it is so important that all options remain on 
the table. I yield back.
    Chairman Royce. Thank you, Mr. Chairman.
    This morning we are pleased to be joined by a distinguished 
group of experts on this subject. Dr. Ray Takeyh is senior 
fellow for Middle East studies at the Council on Foreign 
Relations.
    Mr. Takeyh was previously a senior advisor on Iran at the 
Department of State. He was professor at the National Defense 
University.
    We also have Scott Modell, a senior associate at the Center 
for Strategic and International Studies. He serves as a senior 
advisor to U.S. Special Operations Command on counter threat 
finance issues. He was previously a senior officer in the 
National Clandestine Service at the Central Intelligence 
Agency.
    And Dr. Natan Sachs--Natan, as he is known, is currently a 
fellow at the Brookings Institution's Center for Middle East 
Policy. Previously, Dr. Sachs was a fellow at Stanford Center 
on Democracy Development and Rule of Law and a Fulbright Fellow 
in Indonesia.
    So without objection, these witnesses' full prepared 
statements will be part of the record. We are going to 
encourage them to summarize and then we will go to questions. 
Members will have 5 calendar days to submit statements and 
questions and anything extraneous for the record.
    Dr. Takeyh, if you would like to begin.

 STATEMENT OF MR. RAY TAKEYH, SENIOR FELLOW FOR MIDDLE EASTERN 
   STUDIES, MIDDLE EAST PROGRAM, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you, Mr. Chairman. It is a privilege for 
me to be here again as well as with my colleagues Scott and 
Natan.
    I will just briefly discuss some aspects of my testimony. I 
think the high drama of arms control negotiations and diplomacy 
in Vienna today dominates our impressions of Iran and defines 
those.
    In the next couple of weeks the diplomats will debate how 
much centrifuges are to be traded for how much sanctions 
relief. There is already talk that negotiations may be extended 
past July 20th, given the significant gaps that remain between 
the two powers.
    The nature of the inspection regime and enforcement 
mechanism will also be discussed. Whether a durable agreement 
can be negotiated with an unreliable partner, as you suggested, 
such as the Islamic Republic, will be put to a test.
    Hovering over all these technical issues is the challenge 
of addressing Iranian revisionism in the era of nuclear 
diplomacy. Tehran, as was mentioned, is busy advancing its 
claims in a contested Middle East, and Washington would be wise 
to check the surge of Iranian power and negate its regional 
designs.
    The key actors defining Iran's regional policy are not 
urbane diplomats mingling with their counterparts in Europe but 
the Revolutionary Guards, particularly the famed Quds Brigade. 
For the commander of the Quds Brigade, General Qassem 
Suleimani, the struggle to evict America from the Middle East 
began in Iraq and now has moved to Syria.
    Syria is the front line of that particular resistance. For 
the hardliners in Iran, the Sunni state's attempt to dislodge 
Bashar Assad from power is really a means of weakening Iran.
    The survival and success of the Assad dynasty today is a 
central element of Iran's foreign policy. Next door, Iran's 
model of operation in Iraq actually draws from its experiences 
in Lebanon in the early 1980s when Iran essentially amalgamated 
various Shi'i parties into a lethal Hezbollah organization and 
Hezbollah has remained the instrument of Iran's foreign policy 
since then.
    Since the removal of Saddam, Iran has similarly been busy 
strengthening Shi'i forces in Iraq by subsidizing their 
political activities and arming their militias. Iran hopes that 
Shi'ites will continue to exploit their demographic majority to 
solidify their political gains.
    But should the political process fail, they must be 
sufficiently armed to win the civil war. The purpose of Iran 
military dispatches to Iraq initially were to evict the United 
States and now it is to maintain the viability of Shi'a forces.
    A certain misapprehension, I think, was born in Kabul and 
has migrated to Baghdad, mainly that we need Iranian assistance 
to stabilize our war-torn charges. The ISIS surge in Iraq is 
once more portrayed as an opportunity for the two powers--
United States and Iran--to collaborate.
    The stark reality remains that United States launched Iraq 
with much sacrifice on this path of precarious stability 
despite Iran's harmful interventions and to do so again will 
require American initiative rather than Iranian benevolence.
    Iran's fundamental interest in Iraq tends to diverge from 
those of the United States. We ostensibly seek an inclusive 
Iraq with greater participation of Sunni forces in the Shi'i 
government.
    Iran desires a Shi'i hegemony with the veneer of Sunni 
participation. Iran essentially desires an Iraq that is 
estranged from the Arab Councils and at odds with the United 
States.
    Today, as you mentioned, the region is feared and gripped 
with fear that arms control policy will lead to a larger 
detente between the United States and Iran. This concern has 
some justification in history during the heydays of arms 
limitation talks between the United States and the Soviet 
Union.
    Nuclear accords were often followed by commerce and 
diplomatic recognition. Washington has often been seduced by 
the notion that nuclear agreement can pave the way for other 
areas of cooperation.
    The challenge that the United States faces today is to defy 
its own history. America must find a way to impose limits on 
Iran's nuclear ambitions through negotiations while restraining 
its regional ambitions through pressure.
    This will require rehabilitation of America's battered 
alliances in the Middle East. Strategic dialogues and military 
sales are not going to be sufficient. Washington can reclaim 
its allies' confidence but it cannot do so without being an 
active participant in Syria and Iraqi sagas.
    Further attempt to exempt ourself from this conflict will 
mean that our pleasures will ring hollow to a sceptical Arab 
audience. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Takeyh follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Thank you, Doctor.

STATEMENT OF MR. SCOTT MODELL, SENIOR ASSOCIATE, BURKE CHAIR IN 
    STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES

    Mr. Modell. Chairman Royce, members of the committee, thank 
you very much for the opportunity to come here today. You have 
read my testimony. I think everybody is sort of in agreement 
with what I have summarized in my testimony.
    There are a few points I wanted to extract from it, expand 
a bit on it and one was the idea that I think has been 
encapsulated in some of the initial comments was basically that 
Iran, beyond the nuclear program, approaches its revolutionary 
agenda in a whole of government approach.
    There is a lot of talk here in the United States about how 
we do things around the world, you know, sort of incorporating 
a whole of government approach currently working in the 
Pentagon and a lot of our time is spent trying to figure out 
how do we bring together State Department and a variety of 
agencies to accomplish certain foreign policy objectives 
overseas and it is not easy.
    But if you look at what Iran does from bottom up in terms 
of trying to project their power and trying to accomplish their 
agenda throughout the Middle East they really do take a whole 
of government approach, certainly more so than the Arab States 
that I have seen.
    The nuclear deal, I think, one of the things that I am 
continuously seeing and hearing that really surprises me is the 
fact that people are going to--that they are considering giving 
a pass on the possible military dimensions of the program. I 
hope that is inaccurate. We have been watching this for over a 
decade and it is almost astonishing that that could be ignored.
    So in the run-up to a deal and discussions between the 
administration and Congress on the implementation of a long-
term deal I really hope that that is addressed.
    I also agree with the chairman that I think the 
revolutionary agenda is going to go on. Years ago I recall in 
2011 and 2012 members of the Basij who were posted, you know, 
into Syria and Iraq and elsewhere there were several public 
interviews and they were asking them what they thought about 
Iran's agenda in the region.
    And this was--these were public interviews and they were--
and they said well, we have--our agenda is to create a million-
man force across the entire region.
    They recently said that again--they are interested in 
making a 200,000-man force that is going to spread from Iran 
all the way to Lebanon. I think there is a lot of obstacles in 
the way of doing that but the core objective remains true and 
you can see they are pushing on that objective constantly.
    The other thing I would say is, just because Iran is 
involved in P5+1 talks and has been for some time, I think 
there is a quick rush to assume that the proliferation 
activities have stopped. I think in the run-up to an agreement 
or in the aftermath of an agreement people are going to start 
wondering what is this inspection and verification regime going 
to look like.
    And I would posit to you the most--one of the most 
important aspects of it has to be how do we devise a new 
containment strategy with our allies in the region, not only 
with the IAEA inside looking at facilities to ensure they are 
not cheating and abiding by the terms of the agreement but it 
is the external part that they have built up and done such a 
good job over the last decade that contributes to proliferation 
and has allowed them to move their program so far forward.
    When we start to think about how we are going to work 
together with the GCC more effectively in the future and 
develop a new containment strategy we have to have that in mind 
and I have recommended a number of ways in which we should 
start thinking about how the U.S. Government should be using 
resources overseas to that end in my paper.
    Thank you.
    [The prepared statement of Mr. Modell follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. Thank you.
    Dr. Sachs.

 STATEMENT OF NATAN B. SACHS, PH.D., FELLOW, SABAN CENTER FOR 
         MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Mr. Sachs. Thank you very much, Chairman Royce, Ranking 
Member Engel, distinguished members and staff for the 
opportunity and honor of speaking here today, especially 
alongside Ray and Scott.
    I will speak briefly about Israeli views of this issue. 
While there is considerable good will in Israel toward the 
Iranian people, the Islamic Republic's regime is viewed very 
differently, and with good reason. Indeed, virtually no one in 
Israel, including those who strive in earnest for peace with 
their Arab neighbors, expects good relations with the Islamic 
Republic as currently constituted. Nonetheless, important, 
though limited, variation exists among Israeli policy makers on 
the regional challenges posed by the Iranian regime.
    In my testimony I will touch briefly on the spectrum of 
Israeli views on two such regional challenges--Iran's nuclear 
program and its involvement in terrorism and conflicts abroad.
    In my written testimony I elaborate further on these issues 
and discuss the related question of an alliance of interest 
between Israel and Saudi Arabia and Iran's nuclear program.
    It is important to note first that far more unites Israelis 
on the Iranian nuclear issue than divides them. Diversity of 
opinion exists but the spectrum of opinions is narrow and much 
more limited than on other issues, such as the Israeli-
Palestinian conflict. Virtually no one in Israel's national 
security elite, nor for that matter in the U.S., doubts Iran's 
intention to reach threshold nuclear capabilities.
    Israeli experts and, indeed, the government do not contend 
that Iran has already decided to build a nuclear weapon but 
they do not doubt that Iran intends to have the capability to 
do so.
    Further, almost all in Israel view the possibility of a 
nuclear threshold Iran as a very negative development, for a 
variety of reasons. Most mainstream thinkers support the need 
to project a credible threat to stop Iran's nuclear program if 
all else fails, even by means of conventional force.
    And yet, there remain meaningful differences among 
mainstream Israeli thinkers. First, not all view the Iranian 
nuclear threat with equal severity or use the term 
``existential threat'' to describe it.
    Some even argue that even if all failed, Israel will be 
strong enough to deter a nuclear Iran. Most people abroad 
believe Israel has a second strike capability--notably, Iran 
believes this.
    Iranian acquisition of nuclear weapons might then entail a 
grim but perhaps stable cold war logic of mutually assured 
destruction. This debate rests, of course, on a related debate 
about Iran's rationality, which I will be happy to discuss if 
asked to.
    Second, there is an important variation among senior 
Israeli thinkers on what might constitute an acceptable deal 
with Iran. Some central figures have suggested that very low 
levels of uranium enrichment coupled with stringent inspection 
might leave enough time to react to an Iranian breach of an 
agreement.
    Third and perhaps most dramatically, there are different 
views in Israel on the wisdom of a unilateral strike on Iran's 
nuclear facilities. The Israeli cabinet and security forces 
have been strongly divided on the issue and former security 
officials have warned publicly against a unilateral strike.
    Polling suggests that the Israeli public too is divided on 
the issue and is skeptical of a unilateral strike without U.S. 
support, and I stress that point. Note that there is 
considerable difference and tension between the need to project 
readiness to strike if all else fails, something which nearly 
all Israelis support, and actual support for a strike, on which 
opinion diverges.
    While the credible threat of a strike could help the 
diplomatic track, its credibility can be undermined when these 
differences emerge publicly, as they have.
    In sum, on the threat of Iran's nuclear program, far more 
unites Israelis than divides them but some differences exist on 
the extreme severity of a threat, the nuances of remedies, and 
on the wisdom of unilateral strike.
    By comparison, there is very little debate in Israel on 
Iran's involvement in conflicts and in terrorism in the region 
and abroad. In the past, there was some debate over the degree 
of Iran's control over Hezbollah, its most significant 
subsidiary abroad.
    Some argue that Hezbollah should be viewed more as a 
Lebanese party than an Iranian proxy. The civil war in Syria 
has largely ended that debate in Israel. At Tehran's behest, 
Hezbollah has sacrificed greatly in casualties and in sinking 
popularity among Arab and Lebanese publics, and yet it has done 
so.
    Beyond the immediate region, Hezbollah, along with the 
Iranian Revolutionary Guard, also carried the threat of global 
terrorism against Israeli and even non-Israeli targets, most 
famously, the bombing of the Jewish Community Center in Buenos 
Aires--AMIA--20 years ago this very week.
    A special concern to Israel--at this very moment--is also 
Iran's involvement with militant Palestinian groups, most 
notably the Palestinian Islamic Jihad, or PIJ--a close Iranian 
subsidiary and a very violent terrorist group.
    Hamas' relationship with Iran is more complex. Unlike PIJ, 
Hamas is a large political party as well as a terrorist 
organization. Hamas is also an offshoot of the Muslim 
Brotherhood and its relation with Shi'a Iran and with Assad's 
regime in Syria, once robust, have soured.
    Nonetheless, Iran and Syria have been suppliers of weapons 
for militants in the Gaza Strip including Hamas. Syria-produced 
M-302 rockets, as you mentioned, Mr. Chairman, for example, 
have been used against Israeli civilians in the past week.
    Let me conclude by noting a key concern of all Israeli 
policy makers of the full spectrum I described. Israelis fear 
that, should a deal with Iran be reached, whether before July 
20th or after an extension, there will be some in the 
international community who will view the issue as closed--the 
nuclear issue and other issues.
    In reality, the success of any deal will depend completely 
on the monitoring and verification embedded in it. Israelis are 
therefore likely to continue to focus on this issue.
    U.S. interests, which are aligned with, though not 
identical to those of Israel, would be well served if the 
United States too maintained a vigilant, pragmatic but 
realistic watch over Iran's policies in the future.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Sachs follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Chairman Royce. We appreciate your testimony. Thank you, 
Mr. Sachs.
    We go now to a question that I have for Mr. Modell and this 
goes to your testimony that by most accounts you say Iran 
stands to gain access to nearly $100 billion in frozen banks as 
well as billions more as oil export restrictions are lifted as 
part of any agreement, whether that agreement is good or bad. 
That is the consequence.
    Could you translate that impact of this relief--what that 
would mean? What operational capabilities do you estimate the 
Iranians could develop or acquire as a result of the release of 
this funding?
    Mr. Modell. Mr. Chairman, sure. One of the reasons why the 
tempo of Iran's operational activity over the last year or so 
since sanctions kicked in in earnest has been exactly that. 
They haven't had the funding to fund all of their units.
    They haven't had the funding to do certain things, just as 
if--the same way with the U.S. Government or any government, 
for that matter.
    In times of financial crisis there are certain things you 
got to cut back and certain things you can't. In the case of 
Iran with a surplus--with an influx of $100 billion plus 
bringing back oil online, the IRGC ghost force becomes much 
more active.
    Funding that goes to proxies in the region goes back up to 
pre-sanctions levels and you start to see more activity in 
places like Yemen. You start to see more activity in places 
further outside their normal operating areas in the Middle 
East.
    They have had to cut back activities in Latin America and 
Africa and other places because of the sanctions. Those 
activities will pick up, particularly on the covert side, in my 
opinion.
    Chairman Royce. So the added advantage that what they might 
perceive as a windfall what would that give the regime 
specifically in the region?
    If you were just to look at the Middle East, sort of the 
low-level insurrection that they support in Saudi Arabia and 
some of these other--among the Shi'a population there and some 
of the other developments; could you maybe specify what that 
would mean?
    Mr. Modell. One of the things that I would say is what they 
have been trying to do for a long time now and they did this, 
and Dr. Takeyh had mentioned this, in the 80s they had a number 
of Hezbollah movements outside of Lebanon. They tried to 
replicate the example of Lebanese Hezbollah in Bahrain and 
Hezbollah Hejab in Saudi Arabia and so forth.
    They have been trying to do that again and they are going 
to continue to do that--Kuwait and Bahrain and Saudi. So with 
extra money it is exactly what they would try to do. They are 
focused on eastern Saudi Arabia. They are focused on Kuwait. 
They are focused again--I mean, they have stated very 
unequivocally that their goal in Bahrain is to empower Shi'ites 
and to overthrow the monarchy there. So those goals become much 
more attainable with money and with extra units that are 
focusing on those.
    Chairman Royce. What surprises me is the sheer amount of 
weaponry. You know, as I mentioned, when I was in Haifa, I 
mean, at that point in time it was tens of thousands of rockets 
that they had at their disposal and now it is maybe five fold 
that.
    So that is over a decade now. Let us just look at Hamas. It 
is giving its funding, its weapons, its training from Iran. We 
go to March 2011. Israel intercepted the Victoria--intercepted 
that ship off its coast.
    There were C-704 cruise missiles--as well as a lot of 
mortars, but cruise missiles capable of targeting Israeli 
shipping and ports--that Israel said were bound for Hamas in 
Gaza.
    Then you have got on March 5th they intercepted a ship in 
the Red Sea that Israel said was carrying Iranian advanced 
weaponry bound for militants in Gaza, possibly via Sudan. You 
see these M-302 long-range rockets now are what they are 
putting their money into.
    Why in the middle of these negotiations would they run the 
risk of ramping up with resupply of even longer-range rockets? 
And this is another question I have.
    I listened to this speech that the Ayatollah gave recently 
in which he said it was the duty, as I recall--the duty of 
every military man to mass produce ICBMs. Why would he, in the 
middle of negotiations, go out and transmit that kind of 
message through his armed services?
    Mr. Modell. The fundamental difference between the 
revolutionary agenda he has and the way that we would like them 
to come into the mainstream international community. It is as 
simple as that.
    He separates the nuclear negotiations. Like you said, the 
only reason he has come forth for the nuclear negotiations is 
out of dire economic necessity. That has nothing to do with his 
revolutionary agenda, which they are continuing to push day in 
day out.
    And that is what they--and that is the message, quite 
frankly, that he plays to his domestic audience and he wanted 
us to know as well. They are looking for--he said it and 
Foreign Minister Zarif has repeatedly said, we are not looking 
for rapprochement with the West.
    We hope that these will lead to common ground and nothing 
more than that. We are going to continue to push forth in our 
support to militants in Gaza. We are going to continue to push 
forth all of our objectives in the region, which I have stated 
over and over in this paper and you guys have said as well.
    And when you look at the bases of operation that they have 
that are expanding in places like Sudan and Ethiopia and 
others, all of that doesn't with a nuclear agreement.
    Chairman Royce. I am out of time. We will go to Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman. Let me start with you, 
Dr. Sachs. How is Israel likely to view a comprehensive Iranian 
nuclear deal?
    Will they see it as one that empowers Iran and allows Iran 
a freer hand on destabilizing activities in the region?
    Mr. Sachs. Thank you, Mr. Engel.
    The question is in part who in Israel. The government and 
almost everyone would view it with great suspicion. There is 
very little trust in Iran, in the intentions of the Islamic 
Republic.
    There is some hope among some that a deal, if it were 
stringent enough, might help delay somewhat the advancement of 
the nuclear program, and so in that sense there may be some 
minor relief.
    But Israel, as I mentioned, will be very concerned that any 
deal will bring about rapprochement between the U.S. and Iran 
would bring about a relief of all the sanctions and would most 
importantly make others in the international community go to 
sleep on this issue.
    Israel would very much like everyone--itself, the United 
States and everyone else--to remember that this problem will 
remain. I imagine that the reaction in Israel probably will 
have to a deal along the lines that we have been hearing will 
be negative.
    But the question is on the nuance of a negative. Israel may 
view it as a terrible deal that it cannot live with. If the 
terms are strict enough, it may view it as a step that perhaps 
will halt something that it views as very bad, maybe one that 
it can live with in the meantime.
    Mr. Engel. In your testimony, you alluded to Israel 
commonality with some of the Sunni Arab states such as--you 
didn't say it but such as Saudi Arabia or United Arab Emirates 
on Iran--similar outlooks.
    Could you talk a little bit about that?
    Mr. Sachs. Certainly. There is, as others have noted, there 
is a very common concern with Iran. I do think, though, the 
reasons are quite different. The Arab neighbors of Iran have 
longstanding challenges with the Islamic Republic and even with 
Iran itself.
    There is geopolitical issues and there is, of course, the 
Sunni-Shi'a divide that has really engulfed the Middle East at 
the moment. All these things are things that Israel is not 
concerned about.
    Israel is first and foremost concerned about the two main 
issues we've been talking about today--the nuclear program and 
Iran's very active destabilizing activity in the rest of the 
region. And so there is room for cooperation which is very 
important, is room on the nuclear issue, is room on closing 
Iran's opportunity for activity abroad. But it stems from a 
different cause. I will add one more thing, which is that the 
public aspect of this alliance is very difficult.
    The ``Arab street,'' or public opinion, is very sensitive 
to the Palestinian issue and especially these days and this 
makes it harder for Israel and Saudi Arabia to publicly engage, 
although there have been--even despite that there have been 
public instances of meetings, for example, of former chiefs of 
intelligence between the two countries.
    In other words, there is hope on this, although there, I 
think, are some limitations.
    Mr. Engel. Thank you. Let me talk a little bit about 
Iranian support for Hamas and perhaps, Dr. Takeyh, I can start 
with you. There have been some differences between Hamas and 
Iran since they take different sides in Syria.
    Iran supports Assad while Hamas opposes him. How do you see 
this playing out? People have said that Hamas is more 
internationally isolated now than it has been in the past--
isolated from Egypt, isolated perhaps from Syria. Is there a 
chance that this might reduce Iran--that it would cause Iran to 
reduce its material and moral support for Hamas?
    Mr. Takeyh. I think historically the Palestinian 
rejectionist group that has had more in common with Iran has 
been the Palestinian Jihad. However, Iran has always had an 
instrumentalized approach to Hamas, namely, whenever Hamas has 
an agenda that is common with Iran, which is essentially 
intrusion against Israel, then they come together.
    The notion of supporting Palestinian rejectionist groups 
writ large has been the central aspect of Iran policy so I 
don't necessarily think that there is going to be any 
adjustment in that, particularly at a time when this has some 
degree of street popularity.
    Mr. Engel. Is it surprising to you--I know Iran has been 
supporting and supplying Hamas for many years but in doing so 
it is--Iran by doing so is crossing the Shi'a-Sunni divide in 
order to help the Palestinians. Is that something that we 
should be alarmed about?
    Mr. Takeyh. Iran has always suggested that its policy in 
the region is not a sectarian one--that it will essentially 
make common cause with Sunnis that share its agenda. It is the 
Sunni street that likes to portray Iran mostly as a Shi'ite 
state but essentially Iran has always tried to have a pan-
Islamic approach and to essentially unite Shi'ites and Sunnis 
that share the same common objectives.
    Now, that has become very difficult as the region has 
become subject to such sectarian division and Iran at this 
particular point is more closely aligned with Shi'a state but 
is always open to dealing with radical Sunni groups that share 
its perspective.
    Mr. Engel. Mr. Modell, do you have a comment on that?
    Mr. Modell. The only thing I would say is when you look at 
the--when you look at the trajectory of transnational organized 
crime and Iran's collaboration with, like, a group like 
Lebanese Hezbollah, for instance, there are a considerable 
amount of Sunnis and Shi'a that are involved in those 
activities, you know, I don't think Iran has any problem 
crossing, for political convenience, any----
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Chris Smith of New Jersey. Oh, he is 
going to defer to Ileana Ros-Lehtinen of Florida.
    Ms. Ros-Lehtinen. He is a gentleman. Thank you so much, Mr. 
Chairman, as you are.
    Iran agreeing to the weak and easy to live up to interim 
agreement is just another ploy by the regime to win concessions 
and buy more time, and now that the deadline is quickly 
approaching an extension must not be given.
    Instead, we need to start reexamining our sanctions program 
against Iran and ways to counter its illicit and destabilizing 
activities. We have no reason to trust this regime but we have 
decades of proof that shows Iran's true colors.
    One of the very first acts of terror of this current regime 
in Iran was responsible for, after the '79 Islamic revolution, 
the seizure of the U.S. Embassy in Tehran. Led by a group of 
students but spiritual followers of Khomeini, these terrorists 
held 52 American diplomats and citizens hostage for nearly 450 
days.
    Iran has been a United States-designated state sponsor of 
terrorism since '84. It has been repeatedly redesignated by the 
State Department as a country of particular concern for its 
continued and flagrant abuse of religious minorities and the 
regime has been highlighted year after year by our State 
Department's country reports on human rights practices for its 
abysmal human rights record.
    Then, of course, we turn to the nuclear issue. Iran was 
discovered to have been operating a covert nuclear program for 
decades in an attempt to create a nuclear weapon, a program 
that we did not find for years.
    So what confidence do we have that Iran--that we will be 
able to catch Iran cheating again? That is a question. Now, 
there are six U.N. Security Council resolutions against Iran's 
nuclear programs, resolutions that demand that Iran not be 
allowed to enrich any uranium at all, and yet Iran continues to 
be in violation of those resolutions.
    It continues to make progress on its nuclear and ballistic 
missile programs. Yet, from the very beginning administration 
after administration have failed to hold the Iranian regime 
accountable for all of these aggressions--for all of these 
aggressive acts.
    The hostages of the '79 crisis have yet to receive their 
justice. Our policy must be to seek justice for our citizens 
who have been victims of terrorism, hold the terrorists such as 
Iran accountable, and appropriately compensate the victims.
    The administration, this one as have many others before it 
with other rogue regimes, believes that a nuclear agreement can 
open up avenues for further cooperation.
    But we saw this with North Korea and others that this is 
never the case. What is the danger in dealing with Iran as if 
its nuclear program exists in a vacuum? This is somehow that it 
is somehow not related to all of Iran's other illicit and 
problematic areas.
    In the administration's continued negotiations with Iran, 
we have managed to alienate and even anger some of our 
traditional partners and allies in the region and our 
credibility just keeps going lower.
    At what cost will this nuclear deal impact our foreign 
policy and objectives in the Middle East in its totality, 
whether an agreement is reached or not?
    And what would be the benefit of alienating all of these 
countries like Saudi Arabia, like the UAE and even Israel, who 
has a very real and existential concern over Iran's nuclear 
program, in favor of an Iranian nuclear agreement that many 
believe will not go far enough?
    What would be the benefit of alienating all of our allies? 
Thank you, Doc.
    Mr. Takeyh. Thanks. I will begin this. I think there has 
always been something unusual and peculiar about an arms 
control approach because it essentially assumes that you can 
segregate your arms control technical disputes with all the 
other range of disputes.
    So in order to have an arms control approach you have to 
continuously use the phrase yes, but. Yes, the Supreme Leader 
is an anti-Semite who denies the Holocaust but nevertheless he 
can be a suitable custodian of sensitive nuclear technology.
    Yes, Iran is a revisionist state that tends to disrespect 
international norms but it can nevertheless be a suitable 
adherent to various protocols in terms of--in terms of 
proliferation.
    So you have to continuously use the phrase yes, but it 
doesn't matter, and thus has always been very unusual around 
arms control pressure. The joint plan of action that you 
mentioned has one particularly problematic provision to it, 
namely, that it suggests the final agreement that is negotiated 
will have a sunset clause.
    It will have an expiration date. Ali Khamenei recently 
mentioned that he wants to build up to 190,000 centrifuges 
after an expiration of the sunset clause, which Iranians wanted 
to be 5 to 7 years. He can build 190,000 centrifuges with 
impunity.
    He can build a heavy water reactor with impunity. He can 
build 1.5 million centrifuges with impunity and he can upgrade 
those to a level of high advancement and high velocity 
centrifuges.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Takeyh. In essence, Iran can become a nuclear weapon 
state with alacrity.
    Ms. Ros-Lehtinen. Yes, but--thank you very much. Thank you, 
Mr. Chairman.
    Chairman Royce. We go now to Mr. Gerry Connolly of 
Virginia.
    Mr. Connolly. Thank you, Mr. Chairman, and thank you for 
having this hearing. Thank you to our witnesses.
    Picking up on your last statement there, Dr. Takeyh, would 
it be better if the United States simply disengaged and 
announced we are no longer talking to Iran about its nuclear 
development program?
    Mr. Takeyh. No, I don't think that is true at all. I think 
this process of negotiations has been helpful. I think an 
alternative to the deficient arms control agreement----
    Mr. Connolly. Could I interrupt you?
    Mr. Takeyh [continuing]. Is a better arms control 
agreement.
    Mr. Connolly. Okay. Of course, and in a perfect world it is 
even better. But given the fact that our two nations haven't 
really even talked to each other for a long time, you know, 
trying to break the ice so that we kind of get a little bit 
comfortable with each other's styles and where we are coming 
from would kind of make sense in a negotiating posture, would 
it not?
    Mr. Takeyh. I don't have any objections to the process.
    Mr. Connolly. Do you think that the Phase 1 Interim 
Agreement suitably meets that need?
    Mr. Takeyh. I think the joint plan of action has some 
constructive dimensions to it and I think it has some aspects 
to it which were unwise, particularly the sunset clause.
    Mr. Connolly. Do we have--you know, Ronald Reagan 
popularized the Russian phrase ``doveryai no proveryai''--trust 
but verify. How would you assess that level of trust between 
the two countries and what are the mechanisms we need to have--
to be able to have sufficient trust to go forward?
    Mr. Takeyh. Well, I would suggest in terms of arms control 
we should negotiate an agreement whose restrictions are 
permanent and not subject to an expiration clause and that way 
the program can remain limited and therefore subject to 
intrusive verification that can monitor compliance.
    Upon expiration of the sunset clause, Iran will have an 
industrial-sized nuclear program and persistent diversion of 
nuclear resources from an industrial-sized nuclear program are 
difficult to defect irrespective of inspection modality.
    Mr. Connolly. Do you see any kind of cleavage between the 
Rouhani government and the Supreme Leader on the subject and 
how might that affect, you know, the negotiations for a 
permanent agreement?
    Mr. Takeyh. I have only access to the public commentary, 
public speeches and what they say to their audiences and in 
that particular sense, Congressman, I don't know if there are 
too many cleavages between the Supreme Leader and this 
President on the nuclear issue.
    Their style of representation is different but on the 
nuclear issue I have not detected the cleavages that are 
suggested.
    Mr. Connolly. Is there reason to believe that there is an 
awareness in Tehran in governing circles that this really is a 
pretty important issue existentially for Iran, that whatever 
your desire for the symbolism and the prestige and all that, 
this is potentially a direct threat to Iran and its future and 
the stakes are so high that you actually have to get serious. I 
mean, you are going to have to weigh just how important nuclear 
development is to you--that is to say the development of 
fissile material for a bomb versus your very future. How would 
you assess that awareness in Tehran? Because I think that is 
also key to the posture in a negotiating settlement and how we 
respond to perceived sincerity or lack thereof.
    Mr. Takeyh. I think during his tenure as Supreme Leader, 
which began in 1989 which makes Ali Khamenei one of the longest 
serving leaders in the Middle East, the tragedy of Ali 
Khamenei, which has become Iran's tragedy, is that he has 
persistently subordinated national interest to ideological 
compulsions and at this particular point I think there are some 
in the system that recognize the necessity of having a nuclear 
program but also the importance of reviving the economy.
    That particular balance doesn't seem entirely obvious in 
the way he talks about the nuclear issue. What he says in his 
private councils I have no access to. I only know what he says 
to his audiences.
    Mr. Connolly. Yes. And do you think--some people see 
Rouhani genuinely having evolved and creating some political 
space, frankly, between the government and the Supreme Leader 
on this and some other issues. I would say it is just illusory. 
Rouhani comes right out of the leadership circles.
    Mr. Takeyh. Well, he has certainly been part of the 
leadership for a long time and he has been part of the nuclear 
program for a long time. As early as the 1980s he was one of 
the officials responsible for procuring nuclear material.
    So he has been involved in it for a long time and he has 
committed himself to nuclear advancement for a long time. I 
think the way he looks at the nuclear program is trying to 
situate it in the larger context of Iranian needs. However, 
that doesn't seem to be the case with those who he has to 
interlocutor with.
    Mr. Connolly. Dr. Sachs, in the brief time I have left did 
you want to comment? And then I am done.
    Mr. Sachs. Thank you, sir. Yes, I just--I think we should 
point out that the very real dangers of the Iranian nuclear 
program, ones that Israelis and others are extremely concerned 
about, are true with a deal to a certain degree. They are 
certainly true without a deal.
    And so the questions of a deal are very important on 
exactly how they are phrased, what kind of modalities there are 
for inspections and others. But the lack of a deal, I would 
just caution, does not solve our problem by any means.
    Mr. Connolly. Thank you very much, and Mr. Modell, I didn't 
mean to discriminate against you. I have just run out of time.
    Mr. Modell. Okay.
    Mr. Connolly. Thank you, Mr. Chairman.
    Chairman Royce. We go to--certainly. Mr. Chris Smith of New 
Jersey.
    Mr. Smith. Thank you, Mr. Chairman. Thank you for calling 
this very important hearing. Dr. Takeyh, let me ask you, on 
page 2 of your testimony you mentioned--and this is your quote:

        ``In Khamenei's depiction, America is a crestfallen 
        imperial state hastily retreating from the region. 
        Whatever compunctions Tehran may have had about 
        American power greatly diminished with the spectacle 
        over Syria where Washington's redlines were erased with 
        the same carelessness that they were initially drawn.''

    Could you elaborate on it? I think that is a very strong 
statement and how much of that do you think might be true? But 
impression or perception sometimes is as important, 
particularly in the eyes of a mischievous actor like Iran.
    Secondly, I would like to ask you, you did point out on 
page 6 that human rights would have to assume a high place in 
our negotiations. Iran must be pressed to honor international 
norms on treatment of its citizens.
    I have raised with Secretary Kerry on several occasions and 
other representatives from the administration my disappointment 
that human rights were not at least in part integrated in the 
negotiations on the nuclear issue and in mid-June, just June 
18th, I had a hearing on human rights in North Korea and former 
Special Envoy to Sudan Andrew Natsios who is also the co-
chairman of the Committee for Human Rights in North Korea 
pointed out that in the Six-Party Talks we left it out there 
and when they collapsed in totality we had nothing when it came 
to human rights.
    And, you know, we have raised Saeed Abedini, Amir Hekmati 
and Robert Levinson time and time again and said make that a 
part. Your thoughts on that and any other who would like to 
speak today.
    Mr. Takeyh. On the first point, I think the Supreme Leader 
has given two speeches, most recently July 7th that the 
chairman mentioned where he called for 190,000 centrifuges, 
potentially, where he has discounted the possibility of an 
American military strike explicitly and directly.
    So he no longer fears the notion that the United States has 
all its options on the table. At least that is what he tells 
his audiences and he seems very comfortable with the notion 
that his state is no longer going to be subject to American 
nuclear military retribution.
    Israelis I can't speak to because he hasn't spoken to it. 
As far as human rights, as you recall, Congressman, my 
colleague, Mark Lagon, and I have come and seen you and seen 
Congressman Deutch about establishing a human rights commission 
to essentially bring greater legislative focus on this issue.
    In previous arms control negotiations with the Soviet Union 
the issue of human rights was brought up. That doesn't 
necessarily mean that agreement was contingent or linked to 
that but nevertheless it was brought up by George Shultz and 
others in negotiating with the Soviet Union.
    Similarly, I think, could be happening. Human rights 
concerns tend to come from the legislative branch. The 
executive branch tends to be very hesitant about incorporating 
human rights in its diplomacy.
    The Human Rights Bureau in the State Department was 
essentially conceived during Henry Kissinger's time and there 
is nobody less concerned about human rights than Henry 
Kissinger, and it was essentially because of legislative 
pressure.
    So if there is going to be human rights discussions in 
nuclear diplomacy and international diplomacy that initiative 
has to come from the Hill.
    Mr. Modell. Congressman, if I could just say a word on 
that. When Rouhani was elected, one of the things that he 
said--and this was, of course, in collaboration with the 
Supreme Leader--was he had sort of a three-phased approach. One 
was the immediate urgency--contending with the immediate 
urgency of repairing the economy.
    I mean, that first and foremost was on the top of agenda of 
everybody. Once he did that it was about shoring up all the 
support, shoring up the power of the regime itself, and then if 
they got around to it, it was about going and starting to 
answer some of the questions about human rights.
    Now, of course, we have seen a three- or four-fold increase 
in human rights related abuses since Rouhani has taken office.
    The other point I would make too, you know, when you look 
at the type of international inspection and verification and 
monitoring regime that you are going to have to create in the 
aftermath of an agreement, I think people need to keep in mind 
something that it has taken the Iranians maybe 10 or 15 years--
particularly, the last 10 or 15 years--to build up an extremely 
intricate global apparatus for evading sanctions and, you know, 
the idea that we can sign an agreement, think that we are going 
to be able to figure out all the military dimensions, all--
figure out every way in which they are proliferating, I think 
is naive and we better start thinking very soon about how we 
are going to--how we are going to actually come up with a new 
containment strategy for doing things like that.
    And when we talk about the GCC partners and our allies, you 
know, I think those are enduring bilateral security 
partnerships. I don't think that there is any jointness to be--
you know, to be really taken seriously on the part of the GCC 
countries.
    But they are shaken by the fact that they are going to be 
facing a nuclear Iran. The global multilateral containment 
strategy that we need to come up with is critical at this point 
in time.
    Mr. Smith. Thank you. I see I am out of time.
    Chairman Royce. Without objection. We will go to Mr. David 
Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman, and thank you to 
the witnesses for your very important testimony. I want to just 
begin, Dr. Takeyh, with the statement that you made about, you 
know, a better arms control agreement is preferred over a 
deficient one, which I think everyone agrees with.
    But to focus for a moment on this sunset clause, is it your 
assessment that the Iranians think at the conclusion of that 
sunset clause that they are likely to be--or before the 
conclusion of the sunset clause there is likely to be an 
engagement with the United States and the other partners about 
an extension to that agreement or is it your assessment they 
think once it is over all bets are off and they can robustly 
proceed with their nuclear weapons program?
    Mr. Takeyh. The notion that once the sunset clause has 
expired and Iran is treated as any other member of the NPT and 
therefore can expand its nuclear resources and installations 
according to its own determination is something that the 
Supreme Leader has said. It is something that Iran's chief 
negotiator Abbas Araghchi has said as well.
    Mr. Cicilline. Does anyone have a different view of that? 
Okay. I would like to next turn to the destabilizing impact of 
Iran in Iraq and I apologize if you spoke to this a little bit 
earlier.
    But I would like any of the witnesses' comment what you 
think Iran's goals are in Iraq today and whether or not the 
Iranian interests are aligned tightly with the Maliki 
government and what is the likely impact of Iran's ongoing 
engagement in Iraq over the long term.
    Mr. Modell. Congressman, to answer the question, everything 
that I have seen is that Iran is desperately trying to keep 
Maliki in place. They have benefited tremendously by having him 
in place over the last decade. They don't want him to go away 
and if they do--because if he does go away what comes next. 
They are not really sure.
    I think that there are certain Iranians--pragmatic-minded 
Iranians who look at the way Maliki has failed, you know, 
miserably in leading Iraq over the last 10 years and asking 
themselves why Maliki didn't do a better job of, you know, 
governing over Sunnis and Kurds.
    But they are desperately trying to keep him there. They are 
desperately trying to keep the Kurds from breaking away but I 
think their long-term interest is stability and its continuing 
to build the base of support that they have.
    But the problem with the base of support that they are 
building is that it is mainly comprised of Shi'a militia forces 
and those Shi'a militia forces, as we know, are not loyal to 
the government in any way whatsoever.
    So if you are ever going to hope for some long-term healing 
of the sectarian divide in that country in the brutal fighting 
that is going on, that is not the way to do it. So they are not 
really part of the long-term solution, to be honest.
    Mr. Cicilline. Dr. Sachs.
    Mr. Sachs. I think this touches on a very severe problem 
that Iran has that Ray raised earlier. Iran as the major Shi'a 
power would very much like to present itself not as a Shi'a 
power simply because the vast majority of Muslims around the 
world are Sunni.
    And so it would much prefer to present itself as a leading 
power in this part of the world rather than a Shi'a one. The 
animosity toward Israel is part of that. The best way to curry 
favor with people who disagree with you on the Shi'a-Sunni 
divide is to adopt the same enemy that many Muslims 
unfortunately perceive in Israel.
    In Iraq and Syria and Lebanon and elsewhere, Iran is 
finding itself, however, on the side of what is becoming more 
and more a sectarian divide, something which the adversaries of 
Iran--not Israel but Saudi Arabia and others--are seeing very 
much as a sectarian divide.
    I think this is the common theme now of the Middle East and 
really overshadows most of what we are seeing across the 
region. It is not necessarily in Iran's interest but it is very 
worrisome. I agree with Scott very much, it is very worrisome. 
It is becoming more and more, partly through Iran's actions, a 
sectarian divide.
    Mr. Cicilline. And Dr. Sachs, you mentioned in your 
testimony that if Iran develops a nuclear weapon that you 
believe that the transfer outside of the state or outside of 
Iran is a long shot.
    Would you explain kind of what you think argues--from 
Iran's perspective why they are likely to do that or not do 
that because obviously they are developing a nuclear weapon and 
then the transfer to an actor outside of Iran is a further 
complication.
    Mr. Sachs. I was quoting the views--the common views in 
Israel, not necessarily my own. But I do think that by and 
large it is a long shot. Of course, it is a long shot with huge 
ramifications.
    So even if the risk of its happening is low, the damage of 
it happening would be enormous. The main concern with Iran is 
whether it itself would use nuclear weapons and on that many 
Israelis and others believe that since it believes Israel has 
second strike capabilities, and although its goals seem 
unreasonable, its manner of pursuing them has been rational, 
and as a rational actor, therefore, you would expect it not to 
use these nuclear weapons in mutually assured destruction.
    It is a very grim reality, one which I very much hope we do 
not get to, but it may be stable. The transfer to other parties 
is tied to this as well.
    The question is whether they could believe that they could 
do this without detection, whether they would believe that 
Israel would not think that it is them, whether this kind of 
transfer would get them out of the grim mutually assured 
destruction logic.
    It is certainly possible that they would try to do it. I 
think it is unlikely because the chances of avoiding this kind 
of mutually assured destruction logic from the Israeli side is 
low.
    Mr. Cicilline. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Chairman Royce. Thank you. We go now to Mr. Dana 
Rohrabacher of California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. This is 
to the panel--how popular are the mullahs in their own country? 
Are we talking about 10 percent of the people support them? 
Twenty percent? Fifty percent?
    What is the real level of support that mullahs have in 
their own country?
    Mr. Takeyh. I think that is very difficult to estimate. 
However, I would suggest in the aftermath of the 2009 
election--the fraudulent election of 2009--that was really a 
watershed moment when the regime essentially forfeited a 
considerable amount of its popular legitimacy.
    The Islamic Republic became more Islamic and less republic. 
So whatever the popularity it had which, as you mentioned, was 
always very marginal, has, in my opinion, diminished 
considerably after that particular election.
    Mr. Rohrabacher. Could I prod you a little bit more? How 
about giving me just a guesstimate?
    Mr. Takeyh. Possibly 10 percent of the population. But it 
is the 10 percent of the population that it can mobilize and 
bring to the street and essentially dominate.
    Mr. Rohrabacher. All right. And tacit support another 10 
percent or 20 percent?
    Mr. Takeyh. It is very difficult to judge that. I think at 
this particular point the regime is quite unpopular because of 
its performance, because of its ideology and because of the 
infamy that has come because of misconduct.
    I certainly don't think it can survive a plebiscite or a 
fair election.
    Mr. Rohrabacher. Okay. What about our next----
    Mr. Modell. Congressman, I think that you ask one of the 
most difficult questions. We have spent years in the government 
trying to figure out exactly the answer to that question and 
part of the problem with polling in that country is people are 
afraid to speak their minds, particularly when it is not very 
delicately done.
    So to be honest with you, I don't--I don't know but I can 
tell you, though, a reflection of the fact that you don't--I 
mean, you may have a significant amount of people there who are 
unhappy and don't support the mullahs and the regime but that 
hasn't translated into a military movement inside that is 
willing to do what the Green Movement did in 2009.
    Mr. Sachs. I am no expert on Iranian internal affairs but I 
would at least point out that Iran has a very smart way of 
going about ruling a country not through democracy, which is to 
have something that looks sometimes like democracy.
    These hybrid regimes where there are meaningful elections 
that have some kind of meaning but are not truly free--the 
candidates, of course, are vetted ahead of time--this actually 
allows for a lot of steam, a lot of vent to go out. It allows 
people to change some of the policies without undermining the 
fundamental regime.
    So even if the hard core support is very low, we could 
still find a system that is stable both because of some fear 
and oppression but also because there is a smart design to it, 
much smarter than extreme totalitarian dictatorship.
    Mr. Rohrabacher. So let me note for the record, Mr. 
Chairman, that none of our witnesses were willing to actually 
put a number down in terms of what they think the level of 
support for the mullahs.
    Now, we depend on you guys. You know, this is--you are 
supposed to be telling us these things. I would suggest that 
the mullahs are very unpopular with about 90 percent of the 
people but I don't know that--I was hoping you were going to 
give me some guidance on that.
    But we do know that among the people of Iran there are not 
just Persians. What percentage of the population is Persian?
    Mr. Modell. I think it is--the last time I looked I think 
it was 68--67 to 68 percent.
    Mr. Rohrabacher. So you have about 40 percent or so--30 to 
40 percent----
    Mr. Modell. Thirty to forty percent that are Azeris and I 
know there is Kurds and others.
    Mr. Rohrabacher. Kurds, Baloch--people such as that. Is 
there--and the popularity among the mullahs among the 
minorities I imagine would be even less than among the young 
Persians. Is there any reason why--I mean, frankly, when we 
talk about Iran I hear all kinds of analysis of the power flow 
and the dynamics of the Iranian regime itself.
    I rarely hear any specific suggestions of how we get rid of 
it and I would suggest, as I have in the past, that we need to 
be looking at the opposition. If it is only at 10 percent, 
which we don't know--we are not even willing to speculate that 
support level--there should be lots of people there including 
those people who are non-Persian who we might be able to 
mobilize against the regime. But I don't think we have been 
doing that, have we?
    Mr. Modell. No, we have not. Not at all, to be honest with 
you. I would like to make one comment on 2009. So when 2009 
came and the aftermath of the Presidential elections, as you 
recall, and the Green Movement started and as it grew the 
Supreme Leader and the regime completely underestimated it. And 
once they did realize the dimension of the problem, the Supreme 
Leader said okay, now we have to come together.
    And when we are talking about a whole of government 
solution, something that is exactly what they did and it 
cleared out Evin Prison and they got everybody together and 
there is all sort of interagency differences over there 
disappeared as they very effectively dismantled that movement.
    But the key thing is this: It was in 2009 as it started to 
gain momentum that some of the leaders of that movement, and 
this is publicly known, were reaching out to the United States 
and saying what do we do--where do we go--can you give us any 
guidance? And they weren't necessarily looking to overthrow the 
regime.
    That was never their stated goal. But it was a crack in 
the--it was a potential real crack in the foundation that we 
could have assisted and we did not do that.
    Mr. Rohrabacher. We have been waiting for other people to 
make those cracks. We should start helping making them 
ourselves. Thank you very much, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Rohrabacher. We go now to 
Brad Schneider of Illinois.
    Mr. Schneider. Thank you, Mr. Chairman, and thank you to 
the panel for sharing your insights and thoughts. Dr. Takeyh, 
let me start with you and I think it was you who said, you 
know, one of the real concerns about any type of negotiation to 
an agreement with Iran is trying to achieve a durable agreement 
with an unreliable partner and like you I share the concern of 
discussion of a determined--in particular, the idea of a 
discussion of a determined number of years. I think it should 
be at the very least generations if we can't get the permanent 
agreement.
    But more broadly, do you think it is possible for a deal 
with Iran no matter how well structured it is on the document 
to be effectively enforced?
    Mr. Takeyh. I think you have to kind of think about the 
importance of nuclear capability within Iran's larger regional 
policy. At a time when it has an aggressive regional policy it 
makes sense to have nuclear capability.
    In the Gulf today, there is an imbalance of conventional 
power. The Saudis and others have greater conventional strength 
simply because they have access to the American military 
supplies and Iran does not have an access to international 
military supplies and doesn't have an indigenous arms industry.
    So the way Iranians have tried to affect that imbalance of 
power is by developing unconventional capabilities--missiles 
and unconventional weapons, chemical weapons. And so nuclear 
weapons fit into that particular equation and so long as Iran 
has hegemonic aspiration it will make sense for it to have 
nuclear capability.
    As Hassan Rouhani said in his memoirs--he has published 
four--he is very self-reflective--the last one he said look, 
there is a--he always talks about it as a peaceful nuclear 
weapon but he said the problem with our peaceful nuclear weapon 
is it got caught before it reached its objectives.
    So since then, they have to balance nuclear sophistication 
and enlargement with economic contraction and that has been the 
struggle. During the Ahmadinejad era, of course, they put 
privilege on nuclear enlargement.
    Iran, as a matter of revolutionary ideology--the Islamic 
Republic as a matter of revolutionary ideology tends to suspect 
international norms as unfair and international organizations 
as conspiring against it.
    That includes the IAEA and the U.N. Security Council, whose 
resolutions it has rejected as politically contrived. So it 
makes it less reliable of an arms control partner than the 
example that is often cited, mainly the Soviet Union.
    Mr. Schneider. Let me turn to Dr. Sachs, because in the 
context of Iran looking to bolster its capacity--hegemonic 
capacity with unconventional you talked about the full spectrum 
of Iranian activity. Does the support of Hezbollah--Palestinian 
Islamic jihad fit within the context of that trying to extend 
their reach?
    Mr. Sachs. Well, the problem, of course, with negotiations 
around that is what can you do within the context of 
negotiations. So the problem, I think, for many Israelis is, 
indeed, as we have mentioned before--that these negotiations 
don't include all these different aspects--the full spectrum, 
as you say.
    The problem is, of course, whether or not you can get a 
deal in all of that. The question is the capability, even 
through sanctions, which were very stringent, can those 
sanctions bring about Iranian capitulation on everything or is 
there a chance of bringing it about the nuclear issue.
    I don't know that we can on the nuclear issue and it 
certainly looks like we are not going to have it by July 20th, 
although never say never. But the chances of having it on the 
full spectrum are even lower.
    And so the very difficult dilemma, I think, from a policy 
perspective is does one opt for trying to go for something 
which one cannot achieve or does one focus very concretely on 
the specific issues that maybe one can. The spectrum remains, 
though, and this is, I think, a very important point.
    Even if there is a deal on the nuclear issue not only will 
the nuclear issue still be relevant and important the day 
after--in fact, it will be more important to keep a watchful 
eye--the other issues that we have been raising here today will 
be perhaps even more important with Iran freed from sanctions, 
or most of the sanctions at least, and free to do many other 
things that it can't do at the moment.
    Mr. Schneider. I agree with you and I know last month this 
committee passed unanimously the Hezbollah sanctions bill that 
would limit or prohibit their access to international banking 
and thwart some of that relationship. I am hopeful that that 
full House and then the Senate will pass that this month.
    Dr. Modell, as you look at what is happening in the region 
and the threat of holding Iran to account on the full spectrum 
on their nuclear program, and you talked about the inherent 
need that we have to understand their potential military 
dimension--their weaponization, their delivery systems--an 
agreement that just focusses on enrichment how do you see 
that--what risks do you see that that leaves open, going 
forward?
    Mr. Modell. Well, I think the difference--for me, I see 
risks no matter what kind of a deal we strike, to be honest 
with you, because I think that the time--I think somebody has 
mentioned it here--one of the panel has mentioned it here that 
time is key.
    Three, five, seven years--it doesn't matter because when 
that time expires the revolutionary--you know, the conventional 
agenda is not going to stop and if you truly believe that they 
are after nuclear weapons why can't they suspend that?
    They have a long-term vision here--why can't they suspend 
that for 3 to 5 years and pick up where they left off? Another 
thing I would mention too in the context of these negotiations 
it shouldn't be surprising that they are putting limitations--
the Iranians, that is--on the breadth of these negotiations.
    They have got their--they very clearly spelled out their 
own red lines. They won't even talk about ballistic missiles, 
you know, in these--in the context of these negotiations.
    Neither will they talk about rapprochement with the West or 
even human rights. So I think regardless of the--I mean, I am 
hoping for a good--the best deal possible but I think you need 
at least 10 to 15 years to build up the trust that is going to 
be required and the ability. And it is not just the trust.
    It is not just, you know, good behavior over time. It is 
for us to build up the mechanisms we need globally to figure 
out if they are cheating and we can't rely solely on the IAEA 
to do that.
    Mr. Schneider. Thank you. I am out of time. I will just say 
that against a regime that thinks in millennium and carries 
forward a long-term vision, talking about years or decades just 
doesn't seem sufficient. And with that, I will yield back.
    Chairman Royce. We go to Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman. I thank you for 
holding this important hearing this morning. As the recent 
crisis in Iraq began to unfold, the administration initially 
welcomed Iranian engagement in an effort to quickly resolve the 
issue, although many experts cautioned against such policies 
and I would put myself in that latter category.
    I think it is--we have to be very wary of any involvement 
with Iran. But I would be interested to hear the panel's take 
on what is--what is Iran's strategy with respect to Iraq?
    What are they trying to accomplish? What should we be 
particularly wary of? What dangers are they--either the short 
or long term in rubbing elbows with Iran here? Maybe thinking 
we are getting something now that we want but long term we have 
made a deal with the devil here. Mr. Takeyh.
    Mr. Takeyh. I think the objectives of the Iranian 
Government at this point and have been since 2003 to 
consolidate the power of the Shi'i majority.
    They are essentially aware that some degree of Sunni 
participation could help and the civil war is not necessarily 
in their interest because it will have spillover effects.
    In terms of the Maliki government, they probably have their 
dissatisfactions with the way Prime Minister Maliki has ruled 
but overall their approach is in the middle of a crisis you 
don't change horses.
    That was the case in Assad as well in the sense that they 
didn't want Assad to be dislodged and replaced with another 
member of the Alawite family. So you go war with the army you 
have, in essence. And long term essentially to remove Iraq from 
the Councils of Sunni Arab States, have a weakened Iraq--Shi'i 
dominated Iraq--that to some extent relies on Iran for its 
objectives and commerce.
    Mr. Chabot. Thank you. Would any of the other members like 
to touch--Mr. Modell.
    Mr. Modell. The only thing I would--the only thing I would 
add to that is I think there--we shouldn't underestimate how 
many Iraqis are against the idea of Iran's influence in that 
country growing.
    So when we are reading reports here that may sound like we 
are sort of dovetailing, you know, in terms of dealing with 
ISIS, Iranians are working against that cause. We want to work 
against that cause.
    But a lot of Iraqis are very wary about the growth of 
Iran's role in that country. So I would be cautious about 
saying that it is--it certainly is--I think it is more divisive 
over time than anything else.
    Mr. Chabot. Thank you. Dr. Sachs, anything you would like 
to add? Okay. Thank you.
    At the recent talks over Iran's nuclear program in Vienna, 
Secretary Kerry mentioned that the international community 
needs tangible reassurance that Iran will not move to quickly 
develop nuclear weapons.
    How can the administration develop an agreement to 
realistically prevent the Iranians from pursuing the weapons 
program, which I think, quite frankly, whatever we do they are 
bound and determined to accomplish this. But I know the 
administration continues to believe that there is some hope 
there.
    How do you think a long-term nuclear agreement would affect 
Iran's interactions with terrorist groups in the region, for 
example, and what impact would a long-term nuclear agreement 
have on Iran's ability to influence its neighbors in the 
region? And whoever would like to take it is welcome to.
    Mr. Modell. I would say that they are--I tend to agree with 
you. I think regardless of the type of agreement we see, they 
have got an agenda to cross that threshold and weaponize and I 
think that we are going to, you know, in terms of figuring out 
what is it we need to do to figure out how to build a global 
apparatus to give ourselves the best chance of determining if 
they are cheating or not or if they are going to break out.
    Quite frankly, I think we have had the last decade of 
realizing--enough time to realize that it is really hard to do 
these things.
    There is enough evidence--the U.S. Government has collected 
enough evidence--and its allies--over the years of 
proliferation networks but they haven't been criminalized--
adequately criminalized.
    I think that there is a law enforcement aspect to this and 
it is not only U.S. but I think there is a global law 
enforcement aspect to this that needs to be improved because if 
you can--if we enable ourselves to better pursue law 
enforcement investigations that are related to nuclear 
proliferation it goes hand in hand with figuring out if they 
are cheating or not. I think that has been a real deficiency.
    Mr. Chabot. Thank you. Let me--go ahead, Dr. Sachs.
    Mr. Sachs. Well, I think on the central issues that might 
allow for a reasonable deal, I don't think a good deal is 
possible and I agree that there is little chance that it would 
guarantee no development of nuclear weapons.
    But certainly the plutonium track, the weaponization 
aspects of it and, of course, enrichment, both in terms of 
stocks of uranium--the stocks that are already there, but also 
technology and technology that might advance.
    All these issues are crucial and, of course, are being 
raised. Another issue that was raised here today and is more 
problematic is the issue of delivery systems of ballistic 
missiles accurate enough and capable of doing this, and that is 
really important and perhaps one that might be deficient.
    And, of course, verification is the main issue--the degree 
to how stringent the verification will be of compliance to this 
agreement will be crucial. None of this guarantees at all that 
Iran won't pursue it anyway. I would just caution, again, that 
the lack of a deal certainly does not guarantee that either.
    Mr. Chabot. Thank you. My time has expired, Mr. Chairman.
    Chairman Royce. Thank you. We go to Dr. Ami Bera from 
California.
    Mr. Bera. Thank you, Mr. Chairman. I think, Dr. Takeyh, you 
touched on that, at present, Iran doesn't have the military 
capabilities with conventional arsenals compared to Saudi 
Arabia and others in the region.
    So, you know, from my perspective I think how they have 
tried to level the playing field and that balance of power is 
through this--you know, through the terror networks and so 
forth.
    And in essence, you can almost draw a line from Iran to 
Maliki now to Assad to Hezbollah to Hamas as kind of that 
destabilizing force and, you know, if you think about some of 
the proxies.
    I also--you know, I would be curious on your thought there.
    Mr. Takeyh. I think that is right. In 2006 and 2007, the 
current head of the Revolutionary Guards, General Jafari, 
before that he was kind of a strategic planner and he came up 
with something called mosaic defense, namely, that increasingly 
the United States will not invade another Middle Eastern 
country so the question is how do you adjust your defense 
posture in order to advance your objectives given that?
    And essentially he came out with the ideals of asymmetrical 
defense, reliance on missile technology, proxy forces, and it 
was at that time that the role of Hezbollah in particular 
changed in Iranian calculations.
    Hezbollah was no longer a political party with a military 
apparatus that Iranians try to have a greater say in the 
Lebanese society, but they essentially became an auxiliary of 
the Iranian force and you see that manifestation particularly 
in Syria.
    So that is essentially the way they think about their 
defense and unconventional weapons are essentially part of 
that.
    Mr. Bera. In your words, Khamenei puts the ideologic 
interest ahead of the national interest and I think in your 
testimony is it accurate to say he sees the United States as a 
country in retreat from the region?
    Mr. Takeyh. That is right. That is what he says.
    Mr. Bera. So if he is looking at things in that way and if 
we look at what has got us to this point, you know, clearly, 
the sanctions have been effective in bringing them to the 
table.
    Clearly, the sanctions have been effective in creating some 
unrest and, you know, creating some real issues within the 
Iranian economy. Would now--doesn't appear to me now is the 
time for us to step back a little bit. Now is the time for us 
to actually continue to exert influence.
    Mr. Takeyh. I am not disagreeing with that. I think that is 
right. I would say that whatever leverage we have mobilized 
with sanctions and other measures have obviously been 
insufficient to discipline Iran into an agreement should there 
be an extension past July 20th.
    As I was trying to suggest to Congressman Connolly, I don't 
oppose extension of the talks for another 6 months but I do 
think the administration has to respond to the question of what 
do you think is going to happen in the next 6 months that 
didn't happen in the previous ones. I think they should answer 
that question.
    Mr. Bera. Because if we are negotiating with a regime that 
sees us in retreat, from my perspective I don't think that is 
the best position to negotiate from, I think.
    Mr. Takeyh. I would say at this point our coercive leverage 
has not been sufficient to compel an agreement.
    Mr. Bera. Okay. So if--yes, I guess a lot of the others, if 
you would want to expand on that.
    Mr. Modell. I think I would tend to agree with you on this. 
The time for retreating on sanctions is wrong. I think that I 
have seen a number of Iranian leaders talking about it as a 
strategic opening and if after the biggest and the most 
effective sanctions regime we have ever put together isn't 
compelling them now after 6 months of negotiations with an 
economic knife at their throats to actually, you know, really 
be forthcoming about the most--the single most complex 
problem--in other words, the possible military dimensions of 
the program, then the answer is why are we letting up on 
sanctions now?
    Mr. Bera. I would agree and that is not to be construed 
that we don't continue talking. But let us talk and negotiate 
from a place of strength.
    Iran also has, you know, its own issues. You know, 
obviously the challenges that it is facing with the struggling 
al-Maliki government with the ISIL in Iraq and the Sunni 
uprising with Assad facing his own challenges.
    So, you know, they certainly have to--in this negotiation 
they certainly have to fight a battle on multiple fronts as 
well and, you know, again, from a negotiating perspective I 
think my message to the administration and to--I do think we 
need to negotiate from a place of strength and that doesn't 
mean we don't--we stop talking.
    It does mean we negotiate from strength. So thank you. I 
will yield back.
    Mr. Chabot. Thank you. The gentleman's time has expired. 
The gentleman from Illinois, Mr. Kinzinger, is recognized for 5 
minutes.
    Mr. Kinzinger. Well, thank you, Mr. Chairman, and thank you 
all for being here today and spending time with us. I just want 
to say off the bat the idea of--and I have heard administration 
officials talk, Secretary Kerry, and talking about what a 
potential final deal with Iran would look like, and in no way 
have they ruled out some level of enrichment.
    You know, they will argue that well, we will keep it at a 
very low level of enrichment so breakout capability takes a 
long time and, you know, fine argument to make except the 
neighbors don't see it that way.
    And what I think is also interesting is as we negotiate in 
one-two-three agreements around the world, there is a lot of 
areas we have denied our best allies the right to enrich. I 
think of South Korea, I think of the United Arab Emirates--
these people that we say we are committed to a nuclear-free 
Korean Peninsula or Arab Peninsula and we don't give them that 
right.
    And so to give the biggest enemy of the United States, I 
would argue, the right to do something that we deny to our best 
and closest allies will send a tragic message that America 
can't be trusted by its allies and it is not to be feared by 
its enemies and that is something that I fear.
    I also am a veteran of Iraq and as a pilot there and I have 
noticed that it seems like every engagement, whether it is a 
war, whether it is some low-level engagement in the Middle 
East, that we have been involved in has somehow had the 
fingerprints of Iran all over it and I think of in Iraq it is 
estimated now that about half of the men and women that we lost 
in Iraq were a direct or indirect result of Iran itself. 
Whether it was their EFPs, the technology that they exported to 
the terrorists in Iraq, or whether it was even in some cases 
direct intervention. And we have seen that Iran continues to 
destabilize everywhere.
    The other question I have, and I will ask you all to 
briefly answer this because I have some other questions, when 
we withdrew from Iraq--in 2003 we went in, we invaded, Iran 
seemed very eager to work with the United States at that point.
    When we withdrew after 2011, what message did that send--
pulled all the troops out of Iraq--what message did that send 
to Iran? If you could just very briefly answer.
    Mr. Takeyh. I think 2003 did come from, you know, an 
existential threat. We know that now and particularly with 
Rouhani's memoirs. Obviously, the general departure of the 
United States from the region and general hesitancy has 
emboldened Iran and I would actually go back to Syria before 
that and then Iraq became successor and affirmative to Syria.
    Mr. Kinzinger. Okay.
    Mr. Modell. You know, Congressman, I just second that. I 
don't have anything to add other than in 2011 I think they 
viewed it as a strategic victory, to be honest with you, and 
they view U.S. withdrawal out of Afghanistan the same way.
    Mr. Sachs. I think in general there is--the U.S. certainly 
has a problem in the Middle East of a perception of its 
weakness. It rightly or wrongly is perceived that way. Of 
course, the question is what kind of investment is the U.S. 
willing to do to avoid that, and it is a real one.
    Mr. Kinzinger. I think--it is interesting to me. I have 
been studying a little bit recently a lot about the period 
between World War I and World War II where the world was war 
weary and they saw this rising threat in Europe and they did 
not confront it because of purveying war weariness.
    Now, after World War I, I think the world had a right to be 
war weary. It lost millions of people, economies of scale 
destroyed. Today, I hear a lot of, frankly, my colleagues and 
talking heads talk about a war weariness in the United States 
of America.
    And while I understand that some people certainly do 
experience war weariness, you know, there was no tax increase 
to fight the wars. Our economy was not changed based on the war 
in the Middle East, and while we lost too many people it really 
pales in comparison to what was lost at the end of World War II 
or in World War I and World War II.
    At the end of World War II, Harry Truman came in and said--
he didn't look at the American and say you are world weary--we 
have to leave Europe.
    He looked at the American people and said, I know you are 
tired but the Soviet Union is going to be twice the size as it 
is today if we leave Europe and really motivated the American 
people.
    My fear today is that we find ourselves in a situation 
where we are so eager to leave a period of conflict and warfare 
that we will do anything to get out and we hasten the day when 
a bigger war is going to happen, whether it is my generation or 
whether it is generations following me.
    Lastly, I want to touch on as the situation in Iraq very 
tragically unfolds, I hear some people say that this is fine. 
You know, let the caliphate figure out that governing is not 
easy. They don't see governing like we do.
    But they say that is great--let Iran get pulled into a 
quagmire in Iraq like we did, and I would argue that Iran 
defines quagmire quite differently than us.
    We see losing 100 soldiers a month, as tragic as it is, as 
a quagmire and Iran does not. What are your all's thoughts on 
the idea of letting Iran get drug into a quagmire and how that 
would be?
    Mr. Takeyh. The same argument was made about Syria. 
Somehow, Iranians can manage in these convoluted situations 
with less cost and less casualties than we do simply because of 
their high reliance on proxies.
    Mr. Modell. I would just reiterate what I said before. I 
think that the longer time goes on with Iran being involved in 
Iraq, particularly militarily, the worse things get because 
they are going to rely on building up proxy forces there that 
are not necessarily loved by significant amounts of the 
population. So I think it is a negative force over time.
    Mr. Sachs. Just briefly, I think we should also be very 
worried about what happens to these regions whether or not Iran 
gets caught in a quagmire. The ramifications for these 
countries--Syria, Iraq or others--is huge as well.
    Mr. Kinzinger. Thank you, and I yield back.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from California, Mr. Sherman, who is the ranking member of the 
Terrorism, Nonproliferation, and Trade Subcommittee, is 
recognized for 5 minutes.
    Mr. Sherman. Thank you, Mr. Chairman. I do want to just 
mention something for the record. I think it is absurd to think 
that the American people would be all gung ho for another war 
in the Middle East if only we had a President with a different 
personality.
    No one thought that President Bush was a retiring violet 
but in the last year of his presidency I noticed no popular 
groundswell for an American invasion of Iran. I don't sense 
that today. I don't think it relates to whether--you know, what 
the personality of the President is.
    I will say that under this administration we have paid a 
significant economic and diplomatic price for strengthening our 
sanctions on Iran, whereas in the Bush administration we didn't 
pass a single law of significance because the President 
prevented it and we didn't enforce any of the laws we had then.
    So at least this President is willing to cause us to pay a 
diplomatic and economic price to control Iran, if not a price 
in the loss of American troops on the ground.
    Dr. Sachs, you have got, obviously, the Shi'ite-Sunni 
split. Can Iran, al-Qaeda, and this new Islamic state aspire to 
be the leaders of extremist Islam? Can Iran aspire to that role 
or are they limited to the role of a protector of Shi'ites 
worldwide?
    Mr. Sachs. They understand that they are very limited and 
they are especially limited in the context of this 
configuration, so if you look in previous years at the Shi'a-
Sunni divide, it was not necessarily that salient.
    The differences in identity were not necessarily expressed. 
Other issues, national and other, were much stronger.
    But in the context of the Middle East today where the 
Sunni-Shi'a divide is so strong, it is hard to see Iran really 
taking leadership in the Arab world, and this is something that 
is quite different than in the past where they and Hezbollah, 
for example, held the mantle of fighting Israel.
    Mr. Sherman. I see that Russia seems more positively 
disposed to Assad and Tehran. Is this because have a very small 
Shi'ite population in their own country and they are near 
abroad and so they don't see Iran as an ideological threat but 
they do see extremist Sunni groups as an ideological threat?
    Mr. Sachs. I don't know, Sir. I doubt it is about a 
preference between Shi'a and Sunni. I think it is a very strong 
Russian preference for stability at any cost, almost.
    And so they would rather not have extremist groups, 
certainly, something that they fear in their own periphery and 
even in their own federation. But they also have a strong 
preference just for stability, and both of these things lead to 
support for Assad.
    There are other issues as well, but both of these things 
lead in the same direction.
    Mr. Sherman. Dr. Takeyh, how bad is the economic situation 
in Iran now and if you could write one more sanctions law what 
would it be, and how dependent is Iran--I will give you a hint 
on the second question with my third--on spare parts from 
Europe and other American allies? If an elevator breaks down in 
a building in Tehran can they fix it without getting a part 
flown in from Germany?
    Mr. Takeyh. In terms of the economy, according to the IMF 
statistics, which they rely on--the Iranian Central Bank so who 
knows how reliable they are--IMF suggested Iran's economy is 
likely to grow by about 2 percent.
    Mr. Sherman. That is better than our growth. And then can 
you also talk about the black market value of their currency 
because that is something the Iranians can't----
    Mr. Takeyh. Right. They had a liquidity crisis but I think 
they have managed it. They have taken the hits on that. It is a 
country that still relies a great deal on spare parts, as you 
suggested, but increasingly they are beginning to have 
deficient spare parts from China and other--developing 
alternative sources and alternative measures to get their 
economy going.
    But it is very much still a stagnant economy in the sense 
that economic opportunities are having a difficult time keeping 
up with demographics.
    Mr. Sherman. And if you could write one additional 
sanctions law that would cripple or at least hurt the Iranian 
economy over the next 5 years what would it be?
    Mr. Takeyh. Well, the key would be to essentially limit 
their export of oil and that they only have five or six 
customers now so that is going to be difficult to do with the 
Chinese but perhaps there is more leverage with the North 
Koreans and----
    Mr. Sherman. Well, the real question here is not whether we 
are willing to have tens of thousands of Americans die on the 
ground, but whether we are willing to tell the Chinese that 
they have to choose between Iran and the United States as a 
business partner. The toughest adversary we may have in this is 
Wal-Mart.
    Mr. Takeyh. Right. I think it will be difficult to get 
Iranian exports down but that is where the soft spot is.
    Mr. Sherman. Gotcha.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Florida, Mr. DeSantis, is recognized for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman. Thank you, 
gentlemen, for your comments. Dr. Sachs, you had mentioned how 
the Israelis view the threat of a nuclear Iran and I think that 
you painted a picture that they were a little bit more 
accepting than maybe my understanding was going to be.
    I mean, historian Bernard Lewis, one of the most 
knowledgeable historians of Islamic thinking, said that to 
people like Ali Khamenei and Ahmadinejad, the former President, 
mutually assured destruction is not a deterrent. It is an 
inducement for them because it serves to essentially hasten the 
messianic process, the return of the 12th Imam. So what kind of 
purchase does that have in Israeli thinking right now as they 
look at the threat?
    Mr. Sachs. To clarify, I certainly do not mean to suggest 
that the Israeli Government views this in the way that I 
suggested. The Israeli Government's position is very clear that 
only zero enrichment--zero enriched uranium stock--only they 
are acceptable.
    There are some very senior people from the center of the 
Israeli security establishment that view it in a slightly more 
nuanced way. They too though, again, don't think very 
differently from the Israeli administration. They simply think 
that if it was very low enrichment levels, and if the 
verification was very stringent, perhaps it would be liveable, 
perhaps it would be better than a situation with no agreement 
at all.
    But, again, the differences are quite small in Israel. The 
rifts of opinion is quite small. On the issue of rationality, 
there is quite an interesting difference. Some suggest exactly 
as you quoted Bernard Lewis saying that the Islamic Republic is 
inherently irrational.
    The prime minister of Israel has said this as well, and in 
that case they cannot be deterred by any of these means. But 
there are others, very central, in fact, in the cabinet itself, 
who have a slightly different view; who say that even the 
Soviet Union had--not messianic in the religious sense but 
messianic in the utopian sense--aspirations for the world and 
yet they could be deterred.
    It is a very grim reality. It is not something we should 
hope for. The Cold War was certainly not a picnic but it may be 
more stable than the alternative.
    Mr. DeSantis. Yes, I would just say Iran's behavior to us 
is, clearly, irrational but if you accept some of the premises 
that the regime is based on--for example, Rafsanjani was quoted 
about a decade ago saying, Look, you know, we could wipe out 5 
million Jews with one bomb and yes, we know that they would 
respond, and he is just doing this calculation kind of matter 
of factly.
    And it probably would have killed 15 million Iranians but 
you know what? I mean, that is really an acceptable sacrifice. 
There are over 1 billion Muslims.
    And so I think that some of the calculations that he made 
to us would, obviously, be irrational but if you believe in 
that apocalyptic view of Shi'ite Islam then it may be something 
and that is why I think it is so dangerous to allow Iran to 
develop a nuclear weapon. This is not like the Soviet Union, 
who was a very hostile regime.
    At the end of the day they were atheist. If they got blown 
up there was nothing at the light at the end of the tunnel for 
them.
    Let me ask you or I can--actually, any of the panelists. We 
have been talking about on this committee the role of ISIS in 
Iraq and what is happening there. I know Iran is involved. Quds 
Force is there.
    I am trying to get a handle on exactly how involved they 
are. Would we see more Iranian involvement if, say, ISIS was 
threatening the Shi'ite holy sites?
    I know they have talked about they wanted to actually 
destroy those. I take it that the Iranian regime would view 
that as a vital national interest of their country and that 
they may be willing to do even more than they have. What are 
the panelists' views on that?
    Mr. Modell. I think that they have already--that has 
already been in the front of their minds when they are trying 
to determine what is their calculus for involvement, figuring 
out the extent of their involvement in Iraq.
    When they were looking at the--they were looking at the 
most important Shi'ite shrines and protecting them, that has 
been on their minds for a long time. I also think that you are 
going to see--if you start to see the ISIS moving further east 
and further south that you are going to continue to see a 
buildup of more regular Iranian forces.
    Right now, they are relying considerably on proxies and the 
integration of those proxies into regular military--Iraqi 
military units and----
    Mr. DeSantis. You basically have the Shi'ite militia groups 
and then you have--there is a Quds Force commander, I think, 
and so you have the Quds Force with the kind of Sadrist militia 
groups that are the main source of kind of anti-ISIS opposition 
at this point?
    Mr. Modell. You have several different variations. You 
have--you have Shi'a militia groups fighting on their own. You 
have Shi'a militia groups that are partially integrated into 
Iraqi regular forces.
    You have--and what you have, you know, IRGC Quds Forces 
officers overseeing those Shi'a militia groups in both roles 
and you have Shi'a militia groups integrating into Iraqi 
regular military uniforms. You have others where they are 
separated out.
    You have stuff--you have joint units with the Kurds. I 
mean, the Iranians are doing everything they can to build up a 
large proxy force but then a lot of--it is a multifaceted 
effort.
    Mr. DeSantis. Thank you. My time has expired. I would just 
say I think that we are running a very, very serious risk of 
walking into a bad deal here with the administration and what 
they have been doing and, you know, I think Congress really 
needs to speak out.
    A bad deal will be worse than not having any deal at all, 
and I yield back the balance.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Florida, Mr. Deutch, is recognized for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Thanks to the 
panelists. I would like to--I would like to take the 
conversation a little different direction.
    There has been a lot of talk about the nuclear 
negotiations, what a deal looks like, how much leverage we have 
and what would happen if Iran--if there is no deal or if, 
looking ahead if Iran had a nuclear weapon, if they went to 
break out at the expiration of term or whatever the deal is, I 
would actually like to look at it differently.
    What--if you could--if you could talk about what Iran's 
goals are with respect to its support for terror, what are its 
priorities and with respect to the nuclear deal we spend a lot 
of time talking about how dangerous these terrorist groups 
supported by Iran would be if Iran had nuclear weapons.
    But what could Iran do with the immense amount of resources 
that it would possess if it struck a deal and foreign 
investment came pouring in, the economy turned around, its 
currency rebounded, inflation was--all the other things that 
would come from a deal for them, what could they do with that 
in their support of terror? Where would they focus and what 
would that mean for us?
    Mr. Takeyh. Historically, Iran's principal strategic arena 
of concern has been the Persian Gulf. So, in essence, you will 
see them, I think, with additional resources to be much more 
involved in Iraq and the Gulf States at the beginning level, 
and then there is that sort of organic attachment to Hezbollah 
and to a Palestinian rejectionist group--what there would be, 
essentially, in that sense.
    The regime with additional resources would also have an 
opportunity to essentially legitimize itself domestically and 
perhaps craft an agreement with its population similar to the 
Chinese, namely, that in response to political acquiescence you 
get material rewards and vulgar nationalism.
    So it might essentially have a new national compact with 
the population that could perhaps contribute to the regime's 
longevity.
    Mr. Deutch. In other words, population says we can--we can 
live essentially--economically we can live Western lives. You 
do whatever it is you----
    Mr. Takeyh. Separate state from society.
    Mr. Deutch. Dr. Sachs.
    Mr. Sachs. In terms of what I said before, the Iranians do 
seem to be investing very heavily in Shi'a populations abroad.
    Although they don't want to present themselves as leaders 
of the Shi'a, when in fact you look at where they invest their 
resources--their considerable resources--it tends to be there, 
probably because that is where they can find allies.
    So you would expect that Lebanon, Syria--where not only 
Shi'a but other non-Sunni groups would have vast support, even 
bigger than they do today and that would be very considerable. 
In the Persian Gulf itself, one of the biggest concerns of 
Saudi Arabia is the fact that Saudi Arabia itself has a very 
sizeable Shi'a minority and in fact it is located just in the 
strategic area of where the oil is, and so this would be 
extremely dangerous, from their perspective.
    Of course, Bahrain is Shi'a majority. From the Israeli 
perspective, Iranian activity already and even more so if it 
had more resources, is very low cost to Iran. Iran can fight 
Israel by proxy. It sends Hezbollah to do things. It arms PIJ 
and Hamas to do things. But Iran itself does not suffer the 
consequences and so it gains two things. First, it fights this 
holy war that it imagines, and the second is it gains a 
deterrent against Israel for any possible operation.
    The debate I described earlier about Hezbollah, whether it 
will operate on the behest of Iran, is a very serious one from 
Israel thinking that if worst comes to worst and Israel has to 
act conventionally would Hezbollah get involved?
    Some, at the beginning, thought maybe not and, as I said, 
the Syrian civil war just proved that of course they would--
they would do so.
    Mr. Deutch. I would just--I would like to narrow it down. 
So instead of talking about what Iran would do as the leader of 
the Shi'a around the world be specific. Which terrorist groups 
that it supports would it like to support more and what would 
those groups do with the resources?
    Mr. Takeyh. I would say certainly Hezbollah.
    Mr. Deutch. Right.
    Mr. Takeyh. Hezbollah has already been a very generous 
beneficiary of Iran. After 2006 when Hezbollah misadventured 
into war the Iranians essentially helped rebuild much of its 
infrastructure.
    So it would be--that would be different, and also various 
Shi'i militia groups that Iran would have to use in order to 
manipulate the politics of that country and potentially in 
Saudi Arabia.
    It is important to recognize, and I know my time is short, 
in many Middle Eastern countries their internal populations are 
a national security threat. Saudi Arabia views its own citizens 
of Shi'i belief as a national security threat because they can 
make common cause with an external threat. So there is a lot of 
opportunity for mischief.
    Mr. Modell. I would agree with everything he said. The only 
thing I would add in terms of what specific groups would be--
would be supported in the focus I think it would stay mainly 
within the region. But I would also say it is important to look 
at the ways in which Iran right now is actually doing some of 
that--preparing the ground work for that.
    So when you look at Iraq, when you look at Iranian-
supported forces, particularly proxy forces that it is using in 
Iraq, you have Bahrainian. You have Yemenis. You have Afghans. 
You have a number of others.
    They have been cultivating these relationships for a long 
time. I think it would be an expansion of those relationships, 
particularly when they leave Iraq and they go back home. They 
are going back home and they have stronger foundations of power 
for the regime.
    Mr. Chabot. The gentleman's time has expired. The gentleman 
from Florida, Mr. Yoho, is recognized for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. How does Iran's involvement with Iraq in 
dealing with the conflict with the Islamic state, how does that 
affect our negotiation with the nuclear deal with Iraq--I mean, 
Iran?
    Mr. Takeyh. Well, at this particular point I don't think it 
has an impact on it in the sense that Supreme Leader said he 
doesn't want to negotiate with the United States on this issue 
and Secretary Hagel has said the same thing.
    I think both parties are trying to keep this segregated 
from the larger regional conflict that they have.
    Mr. Yoho. Mr. Modell. Okay. Same.
    All right. You know, the purpose of this negotiation or our 
sanctions up to this point was to prevent Iran from having a 
nuclear weapon.
    Sitting in this room right here we have had meeting after 
meeting after meeting that says Iran is going to get a nuclear 
weapon. I mean, 6 to 8 months--we had meetings they said they 
are 6 to 8 months from having four to five nuclear weapons.
    That was a year ago. So I can only assume with the experts 
sitting here they told us the truth so we should assume they 
probably have that. Yet the sanctions that we had didn't 
prevent that.
    So can we realistically think that new sanctions or new 
negotiations are going to prevent Iran from having nuclear 
weapons, especially if there is a sunset clause? The reports I 
have read that said it is going to be 3 to 5 years from now--
when those phase away is what Iran wants.
    I mean, are we going to prevent them from ever having a 
nuclear weapon?
    Mr. Takeyh. Well, I would say in the aftermath of 
expirational sunset clause and I think their 5+1 including 
United States would like to have the longest sunset clause, 
maybe a decade.
    After that, Iran has a right as any other NPT member to 
have an industrial-sized nuclear program similar to Japan's and 
that essentially gives it the ability to manufacture a large 
arsenal of nuclear weapons on short notice.
    Mr. Yoho. Okay. So if we are going in that direction would 
it not be better for us to prepare for that and the rest of the 
world to prepare for that instead of wasting all this time 
trying to prevent something that they are going to do 
regardless if there is an agreement or not?
    Because they have shown that they are not trustworthy and 
they are going to do this anyway so why don't we prepare for 
that and prepare the rest of the world to negotiate conditions 
on how another nation acts toward another? And I know we have 
treaty after treaty after treaty but yet that day is coming and 
I think it would behoove us to focus on that.
    Mr. Takeyh. I think that is right. I am not quite sure if 
it is inevitable for Iran to get nuclear weapons because I 
think there are things that can happen between now and then.
    But I do think one of the reasons why we embrace 
negotiations and the negotiating process is because we don't 
want to ask the questions that you are asking--what if this 
issue is not susceptible to diplomatic mediation--and once you 
answer that question what does the after look like.
    Mr. Yoho. Well, that is just it. It is like--but yet 
somebody has got to tell the emperor he doesn't have any 
clothes on. I mean, we all see it. We see it coming.
    So I think it would behoove us as a nation and this--I want 
to bring this up because the subject of this meeting is 
``Iran's Destabilizing Role in the Middle East.''
    How is our foreign policy viewed? I mean, we have had 
Ambassadors in from all kinds of Middle Eastern countries in 
the last 2 weeks. They said the view of America is at the 
lowest point they have ever seen.
    Our credibility is gone. They don't know what we stand for. 
It is like we have a compass like Jack Sparrow in ``Pirates of 
the Caribbean.''
    It has got a broken compass and they don't know what our 
policies stand for. Our credibility has been lost and you, Dr. 
Sachs, you were talking about--you said the other parts of the 
world view us as weak.
    Explain that. Is that militarily? Is that our foreign 
policy or is that the direction or the will to stand up and do 
what we view is right?
    Mr. Sachs. I think in part it is a pendulum. I think it is 
very strong in the Middle East, perhaps stronger than 
elsewhere. But I think in the Middle East, in particular, it is 
a bit of a pendulum.
    After the years of the previous administration, where there 
was a very involved U.S. policy with boots on the ground in 
massive numbers, we have seems to have swung in the other 
direction and the reaction in the Middle East has been severe.
    It has been one that America has seemingly lost its 
resolve. They have taken the declinist literature seriously, 
which is a mistake, I think. And the result, of course, is that 
they now view the United States as not as resolved as it was in 
the past.
    I would just add one point about the possibility of what we 
might do with an international coalition. Sustaining the 
sanctions, which the Congress has been very important in 
installing, this demands also cooperation with the coalition 
and to keep this coalition going there is some utility in these 
negotiations, even above and beyond the possibility of what a 
deal might bring.
    Mr. Yoho. Right. But yet to have effective sanctions you 
are going to have to tell China what to do and we are not going 
to be able to do that, and as far as boots on the ground the 
only place I want our military's boots on the ground is in the 
United States of America.
    And I would like at some point for you guys if you could 
submit a reset of our foreign policy of what you think we 
should be doing in America as far as dealing with the rest of 
the world because what we have done over the last 30 or 40 
years it ain't working real well. Thank you.
    Mr. Chabot. The gentleman's time has expired and I would 
just note for the record this is my 18th year in Congress and I 
think that is the first time that I have heard a pirate Jack 
Sparrow referred to in the Foreign Affairs Committee.
    So we appreciate Mr. Yoho for injecting that, and I think 
our final questioner this afternoon will be the gentleman from 
Florida, Mr. Vargas, is recognized for 5 minutes.
    Mr. Vargas. California.
    Mr. Chabot. My bad. California.
    Mr. Vargas. Mr. Chairman, that is okay but I love 
California. Just want to make sure it didn't get confused with 
Florida. I love Florida too.
    I guess I would say this. I hope it is not inevitable that 
Iran would get nuclear weapons because, unfortunately, I think 
that they would use them.
    I mean, I think it is one of those regimes that would be 
willing to do that. I have been very sceptical of this interim 
agreement. I think it was a bad deal. I continue to think it is 
a bad deal because of naivete on our side.
    I am even more sceptical of a long-term agreement if it is 
not a permanent agreement and the reason for that is I remember 
1970. I am old enough to remember that and the hostage taking.
    That was 35 years ago. I mean, certainly, I think the 
Iranians will wait us out if it is only 7 or 10 years and they 
will have the ability then to break out and have a nuclear 
weapon and I think that they would use that in many different 
ways.
    Even if they didn't use the weapon itself, which I think 
they probably would, they would use it at least to destabilize 
the area.
    And so I look at this very sceptically. I did think that 
the sanctions program was working. I think what we did here in 
this House was the appropriate thing and that was to ratchet 
them down.
    And then if were going to get to an agreement I think the 
agreement had to be this: Either you do away with your nuclear 
program completely--no enrichment, no ability to create a 
nuclear weapon--or we continue down this path of sanctions and 
you have no economy and you probably lose your regime.
    Make them decide that first. Then you can back up and do 
the interim agreements. We didn't do that, unfortunately, and 
so I think we are in a very difficult situation.
    So now what do we do? I mean, we are in this situation now. 
I think that it is a very dangerous one. What do we do? I mean, 
you are the experts. What should we do?
    Mr. Takeyh. I would say in the next--given the fact that 
our course of leverage has not been sufficient to compel 
Iranian compliance, I think it is time for Congress and the 
White House to sort of come together on what they want to see 
in terms of another sanctions bill.
    The White House would have its preferences and equities and 
the Congress would have. But I think it is time for the two 
branches of government to come together.
    If our leverage has not been sufficient to get Iranian 
compliance in the last 6 months, why do we think it is going to 
be sufficient to get Iranian agreement in the next 6 months 
unless we do something different? So that is what I would 
argue.
    Mr. Vargas. How about yourself, Mr. Modell?
    Mr. Modell. The only thing I would add, I think the only 
reason Iran has come to the negotiating table--I mean, this is 
a point that has been stressed over and over--is out of 
economic necessity and it is because we had a strong position 
on the sanctions that this Congress put forth were as strong as 
they have ever been.
    It is fantastic. I agree with Dr. Takeyh's guidance that 
the administration--there has to be better collaboration on 
this between this administration and the Congress on figuring 
out the way forward.
    The last thing I would do is make sure that we shore up 
allied support on, you know, from the European Union in 
particular on oil sanctions and other things before we lose 
them.
    Mr. Vargas. Thank you. Dr. Sachs.
    Mr. Sachs. Finally, just on this point, I think to maintain 
the sanctions, to maintain cooperation from our allies, it is 
crucial that if these talks fail, whether this week or in 6 
months, that Iran is blamed--that Iran is blamed in the eyes of 
others and not the United States.
    And this entails from us to be slightly more pragmatic in 
the short term but keeping our eye on the long game, and to do 
that we need to make sure--we need to understand, I think, that 
the key to keeping this pressure on Iran is actually our 
alliance with the other P5+1 countries and the EU in 
particular. And to do that we will have to be creative about 
how we approach this problem.
    Mr. Vargas. And I guess I would say this. You know, we 
always talk in sort of obfuscating terms. We always say keep 
all the options on the table.
    Mr. Modell, you kind of broke that taboo today and you 
actually talked about using conventional force, and I would 
like to talk just a second about that because I think that 
there is this huge hesitation even to think about that other 
than in this obscure sort of way of saying keep all options on 
the table.
    But what--really what it looked like if we had to do 
something militarily? Let us talk about that for a second 
because I think that we should say what it is and that is not 
all options on the table but military action.
    Mr. Modell. I am not sure what the context was in which I 
said--that I said I would advocate the use of----
    Mr. Vargas. Not the advocation of it--the possibility of 
it. That might need to be what we do.
    Mr. Modell. No, actually I think that--listen, as long as 
the Supreme Leader thinks that that is possible I think it is 
going to compel him to actually take the fact that we are 
pushing on this nuclear issue seriously.
    If he doesn't believe there is--that that threat even 
exists or is credible any longer I think he is going to start 
trying to figure out all the--go to fall back on all the 
sophisticated ways in which they, you know, relied on denial 
and deception and dissimulation for the last 35 years.
    I personally agree that we need to go back to what you just 
suggested, which was a very strong sanctions position before 
anything else.
    Mr. Vargas. I agree. My time has expired. I thank you, Mr. 
Chairman.
    Mr. Chabot. Thank you very much and, again, my apologies 
for misidentifying the gentleman's state. I apologize.
    Mr. Vargas. No worries, sir.
    Mr. Chabot. So I think that concludes the questioners this 
afternoon so--this morning, rather. We--actually we are 
afternoon, and would like to thank the panel for their 
testimony.
    All members will have 5 days to extend their remarks or 
submit written questions. If there is no further business to 
come before the committee we are adjourned.
    Thank you.
    [Whereupon, at 12:07 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]

</pre></body></html>
